<html>
<title> - U.S. DEPARTMENT OF VETERANS AFFAIRS/ U.S. DEPARTMENT OF DEFENSE COOPERATION IN REINTEGRATION OF NATIONAL GUARD AND RESERVE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                  U.S. DEPARTMENT OF VETERANS AFFAIRS/
                       U.S. DEPARTMENT OF DEFENSE
                    COOPERATION IN REINTEGRATION OF
                       NATIONAL GUARD AND RESERVE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON OVERSIGHT AND
                             INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2008

                               __________

                           Serial No. 110-94

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
43-996 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX., Jr., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  HARRY E. MITCHELL, Arizona, Chairman

ZACHARY T. SPACE, Ohio               GINNY BROWN-WAITE, Florida, 
TIMOTHY J. WALZ, Minnesota           Ranking
CIRO D. RODRIGUEZ, Texas             CLIFF STEARNS, Florida
                                     BRIAN P. BILBRAY, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             June 24, 2008

                                                                   Page
U.S. Department of Veterans Affairs/U.S. Department of Defense 
  Cooperation in Reintegration of National Guard and Reserve.....     1

                           OPENING STATEMENTS

Chairman Harry E. Mitchell.......................................     1
    Prepared statement of Chairman Mitchell......................    31
Hon. Ginny Brown-Waite, Ranking Republican Member................     3
    Prepared statement of Congresswoman Brown-Waite..............    32
Hon. Timothy J. Walz.............................................     4

                               WITNESSES

U.S. Department of Defense:
    Colonel Corinne Ritter, Director, Army Reserve Surgeon 
      Forward, United States Army Reserve........................    19
    Sergeant Major Janet Salotti, Chief, Reintegration Office, 
      Office of Joint Manpower and Personnel, National Guard 
      Bureau (on behalf of Lieutenant General H. Steven Blum, 
      Chief, National Guard Bureau)..............................    20
U.S. Department of Veterans Affairs, Major General Marianne 
  Mathewson-Chapman, U.S.A. (Ret.), Ph.D., ARNP, National Guard 
  and Reserve Coordinator, Office of Outreach to Guard and 
  Reserve Families, Veterans Health Administration...............    22
    Prepared statement of Major General Marianne Mathewson-
      Chapman....................................................    40

                                 ______

American Legion, Joseph C. Sharpe, Jr., Deputy Director, National 
  Economic Commission............................................     7
    Prepared statement of Mr. Sharpe.............................    35
Iraq and Afghanistan Veterans of America, Patrick Campbell, 
  Legislative Director...........................................     5
    Prepared statement of Mr. Campbell...........................    32

                       SUBMISSIONS FOR THE RECORD

U.S. Department of Defense, Donald L. Nelson, Deputy Assistant 
  Secretary of Defense for Reserve Affairs (Manpower and 
  Personnel), statement..........................................    47
Reserve Officers Association, statement..........................    48


                  U.S. DEPARTMENT OF VETERANS AFFAIRS/
                       U.S. DEPARTMENT OF DEFENSE
                    COOPERATION IN REINTEGRATION OF
                       NATIONAL GUARD AND RESERVE

                              ----------                              


                         TUESDAY, JUNE 24, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
Room 334, Cannon House Office Building, Hon. Harry E. Mitchell 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Mitchell, Walz, Brown-Waite and 
Bilbray.

             OPENING STATEMENT OF CHAIRMAN MITCHELL

    Mr. Mitchell. Good afternoon, and welcome to the 
Subcommittee on Oversight and Investigations hearing on the 
U.S. Department of Veterans Affairs (VA) and U.S. Department of 
Defense (DoD) Cooperation in Reintegration of National Guard 
and Reserves. This hearing will come to order.
    We are here today to address what the Department of Defense 
and the VA are doing to help members of the reserve components 
reintegrate into civilian life after the return from deployment 
to the combat theater. Members of the National Guard and 
Reserves units typically disperse more widely upon their return 
than those in active-duty units and it is more difficult to 
ensure that they receive the readjustment benefits and services 
that they may need and have certainly earned.
    National Guard and Reserve members are serving at the same 
operational tempo as active-duty units. Half of the veterans 
from the wars in Iraq and Afghanistan are members of the 
National Guard or Reserve. It is important for DoD and VA to 
work together, along with the servicemember and his or her 
family, to ensure a good transition from military to civilian 
life. Guard and Reserve members return to their civilian lives 
with little decompression time. Most are married. Many have 
children. And they often find it difficult to reconnect with 
families and communities. The skills and emotional attitudes 
that are essential in a combat environment present unique 
challenges if applied to the civilian life without some 
readjustment assistance.
    Veterans of the Guard and Reserve, just as those in active-
duty components, can make use of educational benefits, 
healthcare, and other readjustment assistance for having served 
their country. Unfortunately, excessive bureaucracy makes it 
difficult for veterans to receive these benefits, let alone 
know what is available. Close cooperation between the DoD, VA, 
and the State is essential to ease the transition from military 
to civilian life. Assisting veterans and their families 
requires that VA be present at demobilization (demob) sites; 
that returning Guard and Reserve units be engaged in and be 
compensated for reintegration activities at thirty, sixty, and 
ninety-day intervals after demobilization; that families be 
fully involved; that DoD, VA, and the States fully cooperation 
and participate in the reintegration events; and that DoD, VA, 
and the States engage in outreach to ensure all Guard and 
Reserve veterans and their families know about the services and 
benefits available to them.
    Congress recognized these needs in the most recent National 
Defense Authorization Act (NDAA). The Fiscal Year 2008 NDAA 
mandates at thirty, sixty, and ninety-day reintegration and 
outreach program. The NDAA also requires DoD to create an 
Office of Reintegration Programs and a Center of Excellence in 
Reintegration within the Office of the Secretary of Defense 
(OSD). The reserve components are awaiting policy guidance from 
that office so they can proceed.
    Despite the slow Federal response, a number of States have 
stepped up and created first class programs. I know that in my 
home State of Arizona, the VA plays a central role in welcoming 
home our Guardsmen. In fact, the VA and the National Guard 
Bureau (NGB) are active participants in these programs in 
States across the country. But only a minority of States have 
them.
    At the national level, VA, NGB and OSD for Reserve Affairs 
are not showing the same level of cooperation and this is 
unacceptable. Let me give you a very recent example. Just last 
week the 325th Combat Support Hospital, or CSH, an Army Reserve 
Unit based in Independence, Missouri, returned home from a 10-
month tour of duty in Iraq. CSH units experience the absolute 
worst that war has to offer on a daily basis. Combat healthcare 
providers require the best post-deployment support that we can 
provide them. The 325th CSH, while deployed, is composed of 
four Reserve subunits from across the country. In some cases, 
individuals are deployed with the 325th from other units to 
fill certain vacancies. In order to make sure that all the 
members of the returning unit are provided reintegration 
services, DoD and the VA must work closely together and be 
prepared to deliver those services in multiple places 
nationwide. This is not an easy task, but it absolutely must be 
done.
    Our citizen soldiers, sailors, airmen and Marines leave 
their families and civilian lives to put themselves in harm's 
way to protect our Nation. The least we can do is give them the 
care and respect that they have earned and deserve when they 
come home.
    [The prepared statement of Chairman Mitchell appears on p. 
31.]
    Mr. Mitchell. Before I recognize the Ranking Republican 
Member for her remarks I would like to swear in our witnesses. 
I ask all witnesses from both panels if they would please stand 
and raise their right hand.
    [Witnesses sworn.]
    Mr. Mitchell. Thank you. Next I ask unanimous consent that 
the Reserve Officers Association may submit a statement for the 
record. Hearing no objection, so ordered.
    [The prepared statement of the Reserve Officers Association 
appears on p. 48.]
    Mr. Mitchell. Now I would like to recognize Ms. Brown-Waite 
for her opening remarks.

          OPENING STATEMENT OF HON. GINNY BROWN-WAITE

    Ms. Brown-Waite. Thank you very much, Mr. Chairman. I am 
very glad that we are holding this hearing today, to see how 
well VA and the Department of Defense are cooperating in the 
reintegration of National Guard and Reserves.
    Seamless transition of our servicemembers has not always 
been smooth, as we know. And it's equally important for us to 
review how this transition is occurring for our National Guard 
and Reservists, and active-duty members. State National Guard 
bureaus are run independently and provide a variety of programs 
in support of returning Guardsmen and Reserves. In Florida, we 
have a very strong State program in support of returning 
National Guard units. In July of 2005, the State legislature 
appropriated funds to establish the Florida Armed Forces 
Reserve Family Readiness Program Assistance Fund to help 
families of servicemembers during their deployment on an as-
needed basis. This program is available to Florida residents 
serving in all branches of the military and it provides much 
needed assistance to the families of our servicemembers who may 
experience unexpected financial hardships during their loved 
one's mobilization, and ensures the family will have the 
resources that it needs to sustain itself while the 
servicemember is away.
    I would like to commend my colleague, Congressman John 
Kline of Minnesota, for his fine efforts in developing the 
Yellow Ribbon Initiatives to establish a DoD-wide deployment 
cycle support program that provides much information and 
services, along with referrals and very proactive outreach 
opportunities for servicemembers and families throughout the 
entire deployment cycle. His legislation, H.R. 2090, would 
direct the Secretary of Defense to establish a National Combat 
Veterans Integration Program, to be known as the Yellow Ribbon 
Integration Program, to provide National Guard members and 
their families with information, services, referral, and 
outreach opportunities throughout their entire deployment. H.R. 
2090 was included as part of the National Defense Authorization 
Act for fiscal year 2008, which became Public Law 110-181 on 
January 28, earlier this year.
    On June 7 of this year, the State of Florida held its first 
Yellow Ribbon event in Jacksonville supporting families of the 
returning 90 National Guardsmen and their families. The Florida 
National Guard is currently working to implement this 
statewide. The Minnesota Yellow Ribbon model, as authorized in 
the National Defense Authorization Act, is something that all 
States should indeed emulate.
    I look forward to learning more from our witnesses today on 
how they are implementing programs to serve our National Guard 
and Reserve components. And I just wanted to also mention, Mr. 
Chairman, that when our National Guard units are deployed what 
we try to do is to get together with the family members who are 
still here to see if there are any needs in the community. And 
we try to, especially now during a declining economy, we try, 
for example, if there is someone who might be having some 
plumbing problems in the house, we try to get some people to 
volunteer from the community to help the families. And I think 
that this has worked very, very well in our district. And I 
would encourage other members to do the same.
    I appreciate the opportunity that you have given this 
Committee by holding this Committee hearing today. And I thank 
you, and I yield back the balance of my time.
    [The prepared statement of Congresswoman Brown-Waite 
appears on p. 32.]
    Mr. Mitchell. Thank you. Congressman Walz?

           OPENING STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Well, thank you Mr. Chairman and Ranking Member 
Brown-Waite, and thank you to all our witnesses who are here 
today. This is a very important topic. It is not an 
afterthought. It is part of the spectrum of care that we 
deliver to our soldiers to make sure that their well-being as 
well as this Nation's well-being and security is taken care of.
    I am very proud to have watched the development of the 
Beyond the Yellow Ribbon Campaign. I spent 24 years in the 
National Guard, in the Minnesota National Guard, and retired as 
a Command Sergeant Major out of that fine organization. I know 
when I returned back and we were all put in a room, those 
combat veterans and those of us who were on service and support 
missions, back early in these conflicts we were put in a room 
for reintegration and we had a nice talk from the chaplain, and 
we watched The Horse Whisperer, and we went home. And I still 
am not sure what the message was. But I know we learned it was 
not the right way to do it. And I applaud, I applaud our 
leaders out in the National Guard and Guard Bureau. We have an 
Adjutant General in Larry Shellito in Minnesota with a vision 
and an understanding of what needed to be done here. And in 
some cases he butted his head up against DoD directives and he 
said, ``Um, no, we do not care if you tell us we cannot have 
them back for the first 30 days. We are bringing them back. And 
we are going to find a way to pay them and we are going to find 
a way to bring their family in. And we are going to find a way 
to get beyond these institutional obstacles that were put up.''
    And they have some data and some metrics we are starting to 
measure. One of the things is--I think that is a fantastic 
statistic--99 percent of our soldiers who deployed, and by the 
way that Red Bull Battalion, our division that went, has the 
distinction of serving the longest tour of duty in Iraq of any 
unit in the United States military. And some of their numbers 
are, 99 percent of them are enrolled in the VA and are captured 
with their information. Minnesota has something that goes the 
next step, it is the County Veterans Service Officers (CVSOs). 
And those CVSOs are given the DD-214s immediately upon return 
that so we are not tracking them down or trying to find out who 
these soldiers are. Unfortunately for our Reserve and our 
active-duty forces the same is not true. And so while the 
National Guard is in a unique situation of deploying and then 
dispersing, they have done a better job of capturing them than 
the regular Army soldiers who came back after their Expiration 
of Time and Service (ETS) date and dispersed.
    So I think, and I agree, that nationalizing to a certain 
degree and having DoD and VA work together with the services to 
make sure we have a national policy implemented, and one that 
works best for each of the States, is the way to go. I would 
have to tell you that I am hoping we are going to hear from DoD 
today because my concern lies with them. I am seeing great 
cooperating out of the National Guard Bureau. I am seeing 
fantastic leadership, whether it is Florida or Minnesota or the 
other States. But I'm quite honestly seeing some of the same 
bureaucratic drag that sees this as an added burden rather than 
a force readiness and a force protection issue of making sure, 
because all of us hope that we will not need to redeploy those 
same soldiers we are reintegrating, but we will, probably more 
than likely we will.
    So it is in everyone's best interest to make sure that they 
and their families are as well taken care of, as reintegrated 
as possible. And the research is out there. The will seems to 
be out there. And this Committee has been committed to making 
sure that we do whatever is necessary to make sure 
reintegration is uniform and it can be measured with outcomes 
that are positive for those soldiers and for the families. So I 
look forward to our testimony today from people who have 
experienced this, who are talking with our soldiers and 
sailors, Marines and airmen, as we are. And tell us what we 
need to do to implement this. Because we're fast approaching 
that fourth quarter where DoD is supposed to have this 
implemented. And I'm hoping someone is out there today to just 
stand up from DoD to tell me how they are doing. And with that 
I yield back.
    Mr. Mitchell. Thank you very much. I ask unanimous consent 
that all Members have 5 legislative days to submit a statement 
for the record. Hearing no objection, so ordered.
    At this time, I would like to recognize Mr. Patrick 
Campbell, Legislative Director for the Iraq and Afghanistan 
Veterans of America (IAVA), and Mr. Joseph Sharpe, Deputy 
Director of the National Economic Commission for the American 
Legion. And I would first like to recognize Mr. Campbell and 
then Mr. Sharpe for 5 minutes each.
    Mr. Campbell.

STATEMENTS OF PATRICK CAMPBELL, LEGISLATIVE DIRECTOR, IRAQ AND 
  AFGHANISTAN VETERANS OF AMERICA; AND JOSEPH C. SHARPE, JR., 
 DEPUTY DIRECTOR, NATIONAL ECONOMIC COMMISSION, AMERICAN LEGION

                 STATEMENT OF PATRICK CAMPBELL

    Mr. Campbell. Mr. Chairman, Ranking Member, Congressman 
Walz, thank you for this opportunity to testify on behalf of 
the Iraq and Afghanistan Veterans of America. This issue is 
very personal to me. As a Guardsman who is still in the Guard, 
who also served in Iraq, this is about my experience and about 
the experience of the people I served with.
    I do want to take this opportunity to say thank you to the 
Chairman and the Ranking Member on behalf of all your work that 
you did with the GI bill. When I looked at who I was going to 
be testifying in front of I said, ``These are two people who 
are definitely heroes in the veterans community right now.'' So 
thank you for all the work that you've done.
    To be honest, writing this testimony has been really hard 
for me. I know the Chairman and the Ranking Member have heard 
me talk a little bit about this story that I'm about to tell, 
but this testimony has taken me down a long road of some 
repressed memories. I looked in my journal that I kept while I 
was over there, and 3 years ago today we were conducting a raid 
in Baghdad. It was one of the first days that we weren't 
actually on the tip of the spear. We were just pulling 
security, doing what's called an outer cordon. It was late 
night. It was clear. Well past curfew, no one should have been 
on the road. And then we saw a man start walking toward us. He 
got closer. We started yelling, ``Stop!'' He got closer. And 
the gunner who was guarding that corner fired a five round 
burst, which, you know, had two tracers, it was pretty loud, it 
scared everyone. And the man kept coming. He kept firing 
warning shots, kept firing warning shots, until the man 
literally was standing right in the middle of our group at two 
o'clock in the morning. As if he didn't even acknowledge the 
fact that he was being shot at, or he was surrounded by 
servicemembers. He walked out the other side.
    And I remember thinking that every one of us that day had 
the opportunity, and probably the responsibility, to shoot and 
kill that person because he was a danger to the unit. No one 
did. And I remember spending the rest of that night listening 
to a particular sergeant, who was my mentor, basically rip into 
us for not taking the shot, not making that tough choice. 
Because he said that, ``we were pretty [blank], very lucky this 
time.'' If he was a suicide bomber, he probably, most of us 
would, already be dead. ``Remember we are fighting a war and 
your enemy will not show you any mercy. Next time you take the 
shot, damn it.''
    This person was an exemplary non-commissioned Officer 
(NCO). He put his fellow soldier above himself and I looked up 
to him. He saved my life many times while I was there and I'm 
sad to say that after we got home from Iraq, the first time 
that I saw him after that he was lying in a casket. It was this 
past Memorial Day and, we had just gotten orders that we were 
going back to Iraq. And unfortunately, the armor, the 
psychological Kevlar that he put on in order to get himself and 
get us through the experience that we were in Iraq, he couldn't 
take it off when he got back. The very thing that made him 
strongest, that made him our leader, made him the weakest and 
made him to be the person that we had to say goodbye to on 
Memorial Day.
    This hearing is on the intersection between the Departments 
of Defense and Veterans Affairs. Integration issues become 
especially important for Guard and Reservists because we are 
both within DoD and within VA. Now, I will say this. The good 
thing is that there are already model programs that have 
already been talked about here today. The Beyond the Yellow 
Ribbon Program is so far ahead of what everything else that's 
currently going on. I can tell you the only time I ever heard 
from VA in the first year that I got back was a letter saying 
that I got my Social Security number stolen and I should check 
my credit report. The first time I went into VA I had to have 
someone who was a Committee staffer on this Committee tell me 
to go.
    The Yellow Ribbon Program is a model program because it 
focuses on a holistic approach that deals not only with the 
soldier, Guard, and Marine, but also deals with their families. 
It gets them into counseling, it gets them a job, and finds 
them something to do. Which is important because I truly 
believe that idle hands are the devil's playground. But within 
that program there are a couple key pieces that even if we 
don't implement the Beyond the Yellow Ribbon Program that we 
must have in order to have successful reintegration.
    First, is mandatory face to face confidential counseling 
with a licensed professional. I cannot tell you how 
embarrassing it is to be walking through the aisles of Barnes 
and Noble talking about my experiences in Iraq to the Post 
Deployment Health Reassessment (PDHRA) on my cell phone. I had 
to try to find an aisle where no one was reading books so I 
could tell them the story about the time where I had to reach 
into someone's cranial cavity and, then had to give the man 
mouth to mouth. I shouldn't have to do that over the phone.
    Second, is we need to greatly expand the VA outreach 
programs. I'm happy to say that the VA has started to outreach 
to all those people who have not sought the VA for healthcare. 
But that's got to be a first step. We need to have a 
relationship that is modeled after the relationships that 
college alumni associations develop with their members, that 
start before you even become an alumni. That starts before you 
become a veteran. The VA needs to be a part of your life the 
day you join. You should get your VA card when you enlist. I 
mean, when get your ID card, you should already be enrolled in 
the VA system.
    The last and probably most importantly is that the VA and 
DoD need to declare war on mental health stigma. I feel bad but 
I've sat in hearings or meetings where people say, ``Oh, we've 
taken care of stigma.'' And I looked at them and I said, ``You 
know, you've got to be kidding. That program that you just 
talked about was pretty much a joke.'' It needs to be a 
coordinated effort that deals with a servicemember, their 
family, and the public as a whole that tells people, ``It's 
okay to get counseling.'' And shows people what that actually 
will do for their lives.
    I'm beyond my time but I really appreciate this opportunity 
and I look forward to your questions.
    [The prepared statement of Mr. Campbell appears on p. 32.]
    Mr. Mitchell. Thank you, Mr. Campbell. At this time, Mr. 
Sharpe?

               STATEMENT OF JOSEPH C. SHARPE, JR.

    Mr. Sharpe. Mr. Chairman and Members of the Subcommittee, 
thank you for this opportunity to present the American Legion's 
views on VA and DoD cooperation in reintegration of the 
National Guard and Reserves. The American Legion commends this 
Subcommittee for holding a hearing to discuss the importance of 
assisting our Reserve component as they make their transition 
back to civilian life.
    With the ending of the Cold war, the Department of Defense 
dramatically downsized its personnel strength. In 1990 
Congress, in an attempt to assist separating servicemembers in 
making a successful transition back into the civilian 
workforce, enacted Public Law 101-510, which authorized the 
creation of the Transition Assistance Program, TAP. This law 
was intended to assist servicemembers, especially those who 
possess certain critical military specialties that could not 
easily transfer to a civilian work environment with education 
and career services. DoD's TAP and Disabled Transition 
Assistance Program (DTAP) are designed in conjunction with the 
U.S. Department of Labor (DOL) and the Department of Veterans 
Affairs to help prepare not only separating servicemembers but 
also their families for a seamless transition to civilian life.
    Last year more than 386,200 servicemembers were discharged 
from active-duty status and more than 500,534 servicemembers 
demobilized from active-duty service. As mentioned, Public Law 
101-510 mandates pre-separation counseling for transitioning 
servicemembers. These programs consist of specific components: 
pre-separation counseling, employment assistance, relocation 
assistance, education, training, health and life insurance. 
DTAP is designed to educate and facilitate disabled veterans to 
overcome potential barriers to meaningful employment. 
Currently, VA, DOL and DoD operate 215 transition offices 
around the world.
    VA in the last several years has improved its outreach 
efforts, especially its efforts to reach and inform active-duty 
servicemembers preparing to leave the military. The American 
Legion still remains concerned, however, that many 
transitioning Operation Enduring Freedom and Operation Iraqi 
Freedom veterans are not being adequately advised of their 
benefits and services available to them from VA and other 
Federal and State agencies. This is especially true of Reserve 
and National Guard units that are often demobilized at hometown 
Reserve centers and National Guard armories rather than active-
duty demob centers.
    VA and the Department of Defense have made strides toward 
improved outreach. Unfortunately, VA's efforts regarding TAP 
are hampered by the fact that only one of the services, the 
Marine Corps, requires its separating members to attend these 
briefings. This flaw in the system did not escape the Veterans 
Disability Benefits Commission and resulted in a recommendation 
that Congress mandate TAP briefings and attendance throughout 
DoD. The American Legion strongly agrees with that 
recommendation. In order for all separating servicemembers to 
be properly advised of all of the benefits which they may be 
entitled to, it is crucial that Congress adequately fund and 
mandate both TAP availability and attendance in all of the 
military services.
    VA also affords separating servicemembers the opportunity 
to start the disability claims process at least 6 months prior 
to separating from active duty through its Benefits Delivery at 
Discharge (BDD) Program. Unfortunately, this program is not 
available to all separating servicemembers with service related 
medical conditions as the program is only available at 140 
military installations. Necessary measures, including adequate 
funding, should be taken to ensure that all separating 
servicemembers, including members of the National Guard and 
Reserves, have the opportunity to participate in the BDD 
process if they so desire.
    Finally, America asks its young people to serve in the 
armed forces to guard and defend this great Nation and its way 
of life. Their selfless service provides millions of Americans 
with the opportunity to pursue their vocational endeavors. The 
successful transition of the servicemember back into the 
civilian workforce must be a shared responsibility, especially 
if that servicemember has suffered service-connected 
disabilities. There is much talk about seeing this transition 
between DoD and VA, but it goes far beyond that. It should be a 
seamless transition between all Federal agencies involved in 
the Transition Assistance Program.
    This concludes my comments. Mr. Chairman, thank you for 
allowing the American Legion to present comments on these 
important matters. Thank you.
    [The prepared statement of Mr. Sharpe appears on p. 35.]
    Mr. Mitchell. Thank you, Mr. Sharpe. I have some questions. 
First, Mr. Campbell. In your personal experience with 
redeploying back home, what are the major problems you 
encounter with the VA or even the DoD?
    Mr. Campbell. Well, major problems were, one, that I was 
one of those individuals who was attached to a unit. So when I 
came home, I separated and I never had anyone checking in with 
me ever since I've gotten home. You have the fracturing of the 
unit--once you come together, from piecemeal as a unit, and you 
go overseas, and you come back and you fracture all over the 
place. Usually only the larger masses get some help.
    The second problem is, is that, a lot of people didn't even 
know that they had a 2-year, it was 2-year back then, a 2-year 
window to go use the VA. It was only because one of the wives 
of the servicemembers we served with actually worked in the VA, 
and came in and did a briefing that anyone found out.
    Third is that we still don't require people to go get 
counseling. I remember, this is going to be awful to say, the 
last person from my unit to commit suicide was on the same 
weekend that the VA did a model program for post traumatic 
stress disorder (PTSD) with my unit. They brought half my unit 
in to do a counseling program and the other half got to stay 
home. Well that same weekend one of the guys committed suicide. 
We need to have a concerted effort that goes out to every 
single servicemember that comes home that involves them in the 
VA at multiple levels. It can't be a one touch and we leave 
them. It needs to be a relationship.
    Mr. Mitchell. Thank you. Mr. Sharpe, what are the three 
biggest issues you currently see facing Guardsmen and 
Reservists when they reintegrate after being redeployed?
    Mr. Sharpe. The number one issue is that they're not all 
benefiting from a comprehensive TAP program. When I returned 
from Iraq, we had our demob. Our demob site was Fort Bragg. 
Prior to my deployment, since I've already, since I'm with the 
American Legion and I've worked with VA pretty closely, I know 
the system fairly well. However, when that VA representative 
came to talk to my unit their message was not in fact clear. 
They sent out a lot of mixed messages. We were told that we had 
these VA benefits but since we were a unit made up of 
servicemembers from ten different States that we were also told 
that depending on which State that you're from, that VA medical 
center closest to you, you may not receive any services by the 
fact that they're overcrowded. That's a mixed message.
    One thing I had told members of my unit, once you return 
you're going to be offered a full physical and you need to sign 
up for it. The VA representative and the DoD representative in 
fact stated that you have a choice between having a full 
medical physical and an abbreviated one. That particular day, 
practically 95 percent of my brigade signed up for that. And 
the very next day they looked at the list and that 
representative said, ``Well, all of you have signed up for this 
full physical but you need to know what that entails.'' And the 
one thing he said was that you're going to have a prostate exam 
and you know what's going to happen to you. After he said that, 
85 percent ran up to the front of the room and crossed their 
names out. Maybe only thirty people had that exam and at the 
end of the exam we had two members that came up with 
precancerous conditions. And they would have never had known 
about that if they had not gone through that exam. So that's 
another problem.
    The second problem was no one was aware that they were 
being offered two years of free medical care. No one understood 
that they could also opt with 6 months of free TRICARE. After a 
year, a lot of individuals in my unit didn't realize that they 
had missed the opportunity to sign up for TRICARE. A lot of 
them really didn't know that they had VA benefits. It was like 
the briefing that we had meant completely, it did not have a 
lasting impact because it was so abbreviated, there were so 
many mixed messages, and many of them got the impression that 
VA really doesn't want to take care of them. That was the first 
concern.
    The second was a lot of members of my unit came back with 
all type of psychological trauma. We had individuals that lost 
their families, ended up homeless, they were sleeping in their 
cars. A lot of substance abuse. One evening a bunch of us got 
together and someone mentioned, ``Is anyone having any mental 
health issues?'' Practically everybody in the room raised their 
hand. And then someone asked, ``But where do we go for help?'' 
So, again, that wasn't made clear to them, that there was a 
place to go for that type of assistance. Many individuals had 
lost their jobs. Their companies made all type of excuses, of, 
``Well, the training program we have, we had then is no longer 
in existence.'' Or, ``We have downsized.'' Or, ``We have no 
need for you.'' So that was another huge problem.
    Again, a lot of these individuals are married. They have 
families. They're from all over the country. And the TAP 
briefing that we had was just not adequate. And we didn't have 
a followup. So when someone is deployed this should be a 
natural part of you being in the service. Constant briefings. A 
clear understanding of what your benefits are. And kind of an 
open door policy. But that was not the case with us. And I've 
been deployed twice.
    Mr. Mitchell. If the rest of the Subcommittee will indulge 
me, just one quick question. When you had your debriefing, or 
your discussion as you were redeployed, was there any followup 
by mail? 
Or was the only thing you had, was it done verbally and that was
 it?
    Mr. Sharpe. There was very little followup. Now, since I 
was already in the VA system and since I knew to apply for a 
service connection, and since I was also enrolled in TRICARE, 
okay, I did receive some followup maybe 6 or 7 months later. 
But when I questioned other members of my unit that had not 
applied to VA, weren't aware of their TRICARE benefits, many of 
them received nothing because they just didn't seem to know 
that they could go to the VA for help. They didn't know that 
they could apply. They didn't understand what a service 
connection meant. And, as far as the Department of Labor, you 
know, they weren't aware that they could go to the one stop 
shops, you know, for employment assistance from the Disabled 
Veterans' Outreach Program (DVOP) and Local Veterans' 
Employment Representatives (LVERs). Very little, very few of 
them knew that they could also get assistance for the, you 
know, their families and finding homes and that type of thing.
    Mr. Campbell. I had a very similar experience. I was told 
that I'd get TRICARE paperwork within 6 months of coming home 
so that I could re-enroll. I got 6 free months and then I never 
got anything. And actually to this day I'm still frustrated 
about that because I missed out my opportunity to buy into 
TRICARE at a lower cost. And, then I had to pay my school an 
exorbitant amount of money to enroll in healthcare when I 
didn't need to.
    Mr. Mitchell. Thank you. Ms. Brown-Waite?
    Ms. Brown-Waite. Thank you, Mr. Chairman. And I want to 
thank both of our witnesses for their service. Words cannot 
express how much your ability and willingness to be in our 
military today means to so many people.
    I would ask if in your experiences and talking with other 
returning servicemembers what kind of programs that you see are 
most successful in reaching out to our Guard and Reservists? 
One of the things that we have been doing recently is, we will 
have a family night where we actually give the information to 
the spouses and other family members. A mother, or mother and 
father, if the servicemember isn't married, to let them know 
what the servicemember will be eligible for. I would like to 
hear from both of you as to what else you found that is 
helpful.
    Mr. Sharpe. I believe there should be a standardized 
program for all the Reserve and National Guard. I know some 
States are more proactive than others but that shouldn't be the 
case. Everyone should have the same opportunities. Right now, 
we have veterans moving to various States because they know 
that they're going, the benefits are better. The military has 
done a great job as far as having mandatory, I guess, workshops 
on sexual harassment, or other subjects, other areas of 
importance, and that should be one. There should be a mandatory 
program that all Reserve and National Guardsmen go through. We 
generally have Uniformed Services Employment and Reemployment 
Rights Act briefings on a regular basis. But there should also 
be some more from VA or the Department of Labor, who 
consistently comes to the unit, maybe three or four times a 
year and give these type of briefings. And, it should be done 
during family day. Because if the servicemember misses the 
information, then you have a second person that may get it. But 
there should definitely be a national program where everyone 
gets the same benefits, and it should be mandatory.
    Ms. Brown-Waite. Mr. Campbell?
    Mr. Campbell. I actually spent this morning talking with a 
bunch of veterans service organizations (VSOs) and a private 
company that was looking into implementing one of the Dole-
Shalala Commission reports requiring a single portal for 
understanding a veteran's benefits. The whole conversation 
dealt specifically with the ideas, of answering the question 
``What am I entitled to?'' And even if I do know what I'm 
entitled to, how do I actually access those benefits? Right now 
if you go to the VA Web site or you go to the DoD Web site, I 
mean you're going to get lost in Web pages. So one of the 
number one priorities is boiling down that information. 
Military One Source is a great opportunity for people to call 
in but there's no Web site equivalent that shows you what 
you're entitled to. That's priority number one.
    Number two, the welcome home events, the phone calls, the 
e-mails, like I said, it's not going to be just one thing. It's 
reaching people in different ways. I don't get e-mails from the 
VA. I get letters from the VA. But I come from a generation 
that almost deals specifically in text messages and e-mails. 
The VA's doing this call center where they're calling 500,000 
veterans, which is great. But how else are we touching them? 
Are we sending them e-mails? Are we sending letters? I mean, 
the VA doesn't have a program where you can sign up and say, 
``Hey, send me some stuff about education. Send me some stuff 
about small business programs. It needs to be a relationship, 
not just a touch and go.
    Ms. Brown-Waite. My last question before I run out of time 
is the Marines actually make the Transition Assistance Program 
mandatory. The other branches do not. Do you feel, if both of 
you would reply, do you feel that this should be mandatory for 
the other branches of service? That TAP would be of great help 
to the servicemembers also?
    Mr. Sharpe. Absolutely. At least by going through TAP you 
are aware of what benefits that you have. And, and it should 
not be toward the end of your career, but it should start as 
soon as you sign up to the military. We have visited various 
DoD facilities across the country and we've had town hall 
meetings with hundreds of soldiers and Marines. And that seems 
to be the biggest complaint, of them not being able to access 
their benefits and not knowing what's available to them. And it 
should be a mandatory program. And I think that would solve a 
lot of our problems.
    Ms. Brown-Waite. And I think if you combine that along with 
Mr. Campbell's suggestion of having an e-mail sign up list----
    Mr. Sharpe. Exactly.
    Ms. Brown-Waite [continuing]. As benefits change----
    Mr. Sharpe. Right.
    Ms. Brown-Waite [continuing]. There would be an instant 
updating.
    Mr. Campbell. That's very funny, because that was the exact 
feature that this new program that they were working on would 
do. You put in what you would want to find and then every day 
it would update what the new programs available under this 
subject. Technology can solve a lot of these problems, but we 
need to invest in it and actually make it happen. And I also 
just want to say that we need to be careful with anything we do 
at the end of a tour, because I call it the duffel bag 
syndrome. They give you enough stuff the last couple days 
you're there to fill up a duffel bag. You keep it in the duffel 
bag until about a year later and you're dumping it out going, 
you know, ``What is all this?'' It needs to be consolidated. It 
needs to be put in a way that's understandable. Hard copy, 
digital copy, it needs to be put up everywhere.
    Ms. Brown-Waite. Thank you. I yield back the balance.
    Mr. Mitchell. Thank you.
    Mr. Walz.
    Mr. Walz. Well, thank you both for your testimony. And when 
it is this Committee, and I hope that your fellow Americans, 
are thanking you for your service, but I think it should be in 
deed and not just in words. So I am pleased to sit on this 
Committee that I think is starting to deliver. And I want to 
thank, of course, the Legion for decades of work and of 
advocating for these very things. And I think there's a new 
voice on the Hill, one that is gaining great respectability and 
great accountability, and it is the passionate voice of IAVA. 
So I thank you for that. And I thank you, and when legislation 
comes forward like our Pain Care Relief Bill, I appreciate you 
helping advocate for that. It makes a difference being in this 
together.
    Just a couple of things here that I am hearing. And I 
really appreciate, I think you are onto this. This Beyond the 
Yellow Ribbon and watching how this worked, and your experience 
is exactly right. The prostate example is exactly it. When you 
are sitting in those billets and you have been gone from home 
for quite a while, and then they tell you that if you go see 
these people you might be there an extra day or two, you do 
not, you want to be outside the wire in three minutes. And you 
will tell them whatever they want to hear. And I had soldiers 
who were hurt, and I had to drag them down there myself because 
they were concerned about that. So I think that as we are 
starting to get this right, and I think in Minnesota where we 
have made it part of it, we have brought them back in, we have 
paid them on unit training assembly on drill weekends, brought 
their families in, made this part of the, you know, it was very 
clear cut on what was going to happen, there was much more of 
an acceptance.
    And I also think you hit on a couple very important points, 
of getting it unified, standardized or whatever. I think, Mr. 
Campbell your point on the mental health side of this, all of 
those who have been in know how critical this is. And it is 
difficult to change a culture. It takes a long time. And it is 
not just a military culture, it is a culture here in the United 
States as we deal with mental health and what we consider to be 
acceptable treatment or levels of acceptability. So I am deeply 
sorry for the loss of your sergeant. It is a story that we hear 
all too often. It is all too, it is all too common.
    But I do not think you should be surprised at what is 
happening and the slowness to get this done. We have had, and I 
just want to give you this. We have witnesses that testify in 
front of us, expert witnesses that are brought into this panel, 
that write books like ``How the Helping Culture's Eroding Self-
Reliance,'' ``Addiction Isn't A Brain Disease, Congress,'' 
``Stressed Out Vets, Believing the Worst About PTSD and Mind 
Games,'' ``Senate Mental Health Parity Bill Ill Conceived and 
Wrong.'' There is still a very strong emphasis here of saying 
that these are things that really are not that big a problem. 
And I think we have to be very realistic as we are trying to 
implement these and push them forward that you are 
simultaneously battling the idea that maybe this is not needed. 
And I said what we need to be able to prove is, and what I am 
concerned about is, prove the metrics that we are getting 
something out of this. Prove that we actually are doing the 
things that we say we are going to do. Be able to prove the 
quality of life. And I think that is what we are starting to 
see in Minnesota because the outcomes are what was most 
important and they back planned from the outcomes. What they 
wanted was healthy families, healthy warriors at the point that 
they were back into the society and figuring out how to get 
them there.
    So I have a couple of questions, again. I am asking you 
both to speculate on this. Why do you think we experience such 
resistance from the VA and DoD in allowing us just to simply 
register people with their DD-214 to the VA immediately? Mr. 
Campbell, you said you even took it a step further and said the 
day you raise your hand is the day you should be enrolled in 
the VA. I said if we cannot do that, at least the day you leave 
you should automatically be enrolled. And I get the answer, 
things like, ``Well, that is personal data,'' and again, it is 
we cannot force someone to enter into the system. We are not 
forcing them to enter into the system. We are forcing them to 
capture the data and be available, that it is there. And so I 
am just, your opinions from the two of you, why do you think we 
experience that resistance? They give me things like they are 
afraid we will lose the data. Now, if there is anybody in here 
who does not find that, if it were not so sad it would be 
humorous, about the VA talking about losing data. Because none 
of our County Veterans Service Officers have done that, who are 
trying to enroll them. So I am just curious.
    Mr. Sharpe. My opinion as far as spending some time working 
with the VA and visiting many of the VA facilities around the 
country, and also when I was on active duty I was in the 
medical corps, so my last assignment was Walter Reed, is that 
both institutions are just overwhelmed. When we deployed back 
to Fort Bragg and we visited Womack there were just so many 
veterans coming, I mean, there were so many people demobing and 
leaving Fort Bragg. The hospital staff was obviously stressed 
out. They really didn't want individuals to go through the full 
physical because they didn't have the staff members to do it.
    Mr. Walz. Mm-hmm.
    Mr. Sharpe. Same thing with the VA. A lot of VA facilities 
are underfunded. You know, staffing is a problem. They would 
rather just take the easy road when they feel like they're 
overwhelmed and can't handle it anymore. And I think that's the 
big problem, is that we just don't have enough facilities to 
handle it. We're still closing VA hospitals. We've closed half 
of DoD medical facilities. Prior to being in the Civil Affairs 
Military Occupation Specialties (MOS), I was in a combat stress 
unit. We had 13 such units across the country. Eight of them 
were demobilized. So I had to find another unit, another MOS to 
get into. So we just didn't, for this war we just didn't have 
the medical capacity to handle the huge numbers of individuals.
    Mr. Campbell. I've always said that if all the people who 
needed help from the VA were to all ask for help at once the VA 
would break underneath the weight. And I think that that's a 
problem. I remember the first time this issue came up, an 
office was asking me about a bill that would require this same 
thing. And the first line we got back was, ``Oh, it's a Health 
Insurance Portability and Accountability Act (HIPAA) 
protection. You can't share information.'' And I kept thinking 
to myself, ``It's similar,'' in HIPAA there's waiver for 
similar populations. And what it came down to me, basically, 
was they don't look at servicemembers as a similar population 
to veterans, which to me when you're talking about seamless 
transition, you're making a nice big gorge in between the two, 
and where it doesn't need to be. Only because we have drawn the 
lines like that. No one in their right mind, draws lines like 
that. It's all one part of the process. You're a student and 
then 
you're an alumni. You're a servicemember and then you're a veter
an.
    Mr. Walz. I yield back. Thank you, Mr. Chairman.
    Mr. Mitchell. Thank you.
    Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. First, Mr. Campbell, 
I apologize for missing your testimony but I appreciate your 
candor and your personal experience on this. So we pretty well 
agree that we should try to have as uniform structure as 
possible across the services. I hope you all, the challenge is 
going to be the Reservists. I mean, we sometimes forget that we 
are actually 50 sovereign countries that have joined together 
into a federation. And the ability for the Federal Government 
to always be imposing on those States certain standards is an 
interesting tightrope we have been pulling for a long time.
    Though I have to say, your points, both of you, is the 
point that, I have to say just coming from local government 
that if you were, we were talking about a certain population 
that was homeless, a population that had committed crimes, a 
population that, what, may not even be legally present in the 
United States, the access and information and the access to 
services are so pre-structured for those populations better 
than what we have with the VA and veterans. There are 
nonprofits out there falling over themselves, getting Federal 
grants to provide services to people that have never earned the 
right of these services. And that is mandated by so many 
different laws that those, that information has to be available 
and those groups or agencies are serving it, to where sadly we 
do not give the same type of attention to those who have earned 
the right of these services. And I guess I always try to remind 
people these are, this is not a welfare program. These are 
earned privileges that were earned out in the field by working 
on it.
    The question is, Mr. Campbell, you talk about the use of 
technology. When you get a phone call from the VA, is it a 
personal phone call? Is electronic reverse 911?
    Mr. Campbell. I've never gotten a phone call from the VA. I 
have gotten a phone call from the DoD and it is, it is one of 
those calls that we used to do when we worked on campaigns 
where it, it was an automatic dialer.
    Mr. Bilbray. Yes.
    Mr. Campbell. And then as soon as you picked up you would 
be then, there would be a long pause and then they would get 
you to a live person. And it would say, ``Sergeant Patrick 
Campbell, please hold for the PDHRA, Post Deployment Health 
Reassessment Team,'' and then another pause. And then you would 
talk to someone who was a licensed physician assistant who had 
only 1 or 2 days of actual mental health training.
    Mr. Bilbray. Okay. So they are using a form of the reverse 
911? Because it, you know, we have used that now for disaster 
preparedness and voting and everything else now, to where you 
literally can customize it and get ahold of people who on a 
certain cause saying, you know, because you are putting notice 
that you have this, this, and this down there. I will tell you 
something, the biggest challenge I have is that as somebody 
that was born at a naval reservation, you know, grew up going 
from one Navy base to the other, I think there is 10 years of 
my life between when my father died and when I started in 
college that I was not either in the military establishment, on 
VA going to college, or working in government. Bureaucracies 
inherently are insensitive and ineffective. And a big 
bureaucracy tends to be bigger than that.
    My question though is that working on this population, I 
think that we have to be talking about not just the services 
that are not or are available to you once you get into the 
States. I think we have grossly underestimated, especially to 
Reservists, the impact that we have had that modern 
transportation has done to the veteran when they come back. I 
have worked with law enforcement where the suicide rate is 
statistically higher, of the problem of going from in harm's 
way and then coming home to the wife and kids, and going back 
and forth, and the psychology effect. And I just ask anybody to 
think about, those of us in Congress, when you wake up in the 
morning and you try to figure, ``Am I in the district, or am I 
in Washington? Where am I?'' Veterans go through this whole 
process, of where am I. I think there is really a gross 
underestimating about the effect of pulling somebody out of a 
war zone, flying them back in a couple days, and putting them 
in with their family immediately. And not understanding that 
until Vietnam there was always a decompression. There was 
always more ability to brief and debrief before you were put 
out onto the street. And I think that as tough as it is for our 
regular forces our Reservists are hit the hardest. I do not 
know where we find the system, and I think maybe working with 
our veterans organizations that actually being these agents, I 
think that we probably ought to do more at literally 
contracting to our veterans organizations, as contractors of 
the United States Government, just as we do with certain 
nonprofits for other targeted populations and do as much for 
our veterans that we're willing to do for a hell of a lot of 
other people running around this country who did not earn that. 
Any comments about that, Mr. Sharpe?
    Mr. Sharpe. I agree with you. I'm still in Reserves. We're 
currently training individuals to go all over the world. I was 
involved in a training exercise a few months ago where we 
trained about 75 individuals, Army Reservists and Navy. At the 
end of the 4 weeks, we sent them to 6 different countries. And 
during that time, you know, we're trying to prepare them not 
only to go into theater but what it's going to be like for them 
once they return. And so of course we try and give them a 
briefing of the benefits that they may not be aware of.
    A lot of them do come back within a few days. They're back 
home with their families. And because of that there are a lot 
of adjustment problems. As I mentioned earlier, many of them 
are having problems with employment and employers. We know that 
a lot of employers now are reluctant to hire Reservists because 
they know they're going to be deployed more than once. We have 
employers that are afraid of PTSD. They're not really sure what 
that is. We have employers that are asking for individuals' DD-
214s. They want to see if they're service connected. Once they 
find out they're service connected, they will let them go. And 
those are all the problems that we're encountering now.
    With the universities, a lot of the universities are 
discovering that these veterans are not prepared to come back 
into the classroom. They don't know what to do for them. We're 
trying to get a lot of them to start setting up mental health 
programs on campuses to take care of that. Luckily, the 
American Legion has 15,000 
posts across the country so we've instituted a lot of our own pr
ograms.
    Mr. Bilbray. Does the American Legion get any Federal funds 
to provide the support facilities for veterans?
    Mr. Sharpe. No, we don't. It's all from membership and a 
lot of fundraising. My post here in Washington, we work a lot 
with Walter Reed and a lot of the things we do for Walter Reed, 
the soldiers there, comes out of our own pockets.
    Mr. Bilbray. Well, thank you. I know this may be a 
controversial statement, Mr. Chairman, but I think that we, I 
know my time is up. But I think we need to take a look at the 
possibility of providing the same type of grants to our veteran 
organizations to provide these services as we have for other 
groups to provide targeted populations. I yield back.
    Mr. Campbell. Can I actually just say one thing about that?
    Mr. Mitchell. Yes.
    Mr. Campbell. H.R. 67 did something similar to that, not to 
the veterans service organizations, but to the county veterans 
service organizations. And I think there right now is a battle 
between the Senate and House versions of that. And I think for 
ever dollar we spend in a county service organization, I think 
a State gets $12 into the economy because, you know, they are 
so successful at helping people find their benefits. And I 
think this has already been passed through the House. You've 
already made an investment to say that something like this is 
important. We just need to actually see it all the way through.
    Mr. Bilbray. And Mr. Campbell, I was the Chairman of San 
Diego County when we founded our county veterans services. So 
thank you for bringing that up.
    Mr. Mitchell. Thank you. And one last question, Patrick, to 
you. Do you believe that when you're talking about the outreach 
program, that TV would help? There's nothing on TV now. Would 
TV help?
    Mr. Campbell. We actually are implementing a large campaign 
with Ad Council. Ad Council, the people who do the Smokey the 
Bear ads. Because we believe that, we need to be reaching out 
to veterans where they are. That's going to be TV. That's going 
to Internet ads. It's going to be all forms of reaching out. 
And we encourage DoD and VA to work with us to help, echo that 
campaign. Part of that's going to be demystifying. The idea of 
combat stress. Rebranding mental health issues. But also 
getting out a central location, bringing everyone to a central 
location, saying, ``This is where you find your resources. This 
is where you find your benefits.'' That reaching out and 
centralization of infomation is what this generation of 
veterans needs.
    Mr. Mitchell. Thank you. And thank you, Mr. Sharpe and Mr. 
Campbell, for not only coming today but also for your service 
to this country, and to the groups that you represent. Thank 
you very much.
    I would like to welcome the second panel to the witness 
table, if they would. And I will begin as the panel takes their 
seats. For our second panel we've invited the OSD Reserve 
Affairs to talk about their progress on the NDAA mandated 
Yellow Ribbon program. And rather than provide a live witness, 
Donald Nelson, Deputy Assistant Secretary of Defense for 
Reserve Affairs, submitted written testimony.
    [The statement of Mr. Nelson appears on p. 47.]
    Mr. Mitchell. If any Members have questions, we can submit 
these for the record.
    At this time I would like to recognize Colonel Corinne 
Ritter, Director of the Army Reserve Surgeon Forward for the 
U.S. Army Reserves; Sergeant Major Janet Salotti, U.S. Army 
Retired, who is the Chief of Reintegration of the Office of 
Joint Manpower and Personnel for the National Guard Bureau; and 
Major General Marianne Mathewson-Chapman, U.S. Army Retired, 
who is the National Guard and Reserve Coordinator for the 
Office of Outreach to Guard and Reserve Families of the 
Veterans Health Administration. Major General Mathewson-Chapman 
is accompanied by Dr. Edward Huycke, Chief Department of 
Defense Coordination Officer for the Veterans Affairs 
Administration; Dr. Alfonso Batres, Chief Readjustment 
Counseling Officer for the Veterans Health Administration; and 
Karen Malebranche, Executive Director for OEF/OIF for the 
Veterans Health Administration; and Bradley Mayes, Director of 
the Compensation and Pension Service for the Veterans Benefits 
Administration (VBA). At this time I would recognize Colonel 
Ritter, Sergeant Major Salotti and Major General Mathewson-
Chapman for up to 5 minutes each. And we can begin with Colonel 
Ritter.

  TESTIMONY OF COLONEL CORINNE RITTER, DIRECTOR, ARMY RESERVE 
SURGEON FORWARD, UNITED STATES ARMY RESERVE, U.S. DEPARTMENT OF 
  DEFENSE; SERGEANT MAJOR JANET SALOTTI, CHIEF, REINTEGRATION 
OFFICE, OFFICE OF JOINT MANPOWER AND PERSONNEL, NATIONAL GUARD 
  BUREAU, U.S. DEPARTMENT OF DEFENSE (ON BEHALF OF LIEUTENANT 
  GENERAL H. STEVEN BLUM, CHIEF, NATIONAL GUARD BUREAU, U.S. 
 DEPARTMENT OF DEFENSE); AND MAJOR GENERAL MARIANNE MATHEWSON-
 CHAPMAN, USA (RET.), PH.D., ARNP, NATIONAL GUARD AND RESERVE 
COORDINATOR, OFFICE OF OUTREACH TO GUARD AND RESERVE FAMILIES, 
  VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
     AFFAIRS; ACCOMPANIED BY EDWARD C. HUYCKE, M.D., CHIEF 
  DEPARTMENT OF DEFENSE COORDINATION OFFICER, VETERANS HEALTH 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; ALFONSO 
BATRES, PH.D., M.S.S.W., CHIEF READJUSTMENT COUNSELING OFFICER, 
  VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
   AFFAIRS; KAREN MALEBRANCHE, EXECUTIVE DIRECTOR OF OEF/OIF 
  SECTOR, VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF 
VETERANS AFFAIRS; AND BRADLEY G. MAYES, DIRECTOR, COMPENSATION 
  AND PENSION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

              STATEMENT OF COLONEL CORINNE RITTER

    Colonel Ritter. Good afternoon Mr. Chairman, distinguished 
Members. I'm Colonel Corinne Ritter representing the Army 
Reserve in the reintegration of our soldiers into their 
communities in their organic units following deployment. I want 
to thank sincerely the House Veterans' Affairs Committee and 
its Subcommittees for their unwavering support of our soldiers 
and their families.
    To date, over 27,000 soldiers have deployed overseas this 
year and 195,000 have mobilized since September 11, 2001. The 
Army Reserve takes a holistic approach to the reintegration of 
soldiers back into their civilian communities in bringing them 
back to their families, their jobs, and their prior lives. 
Prior to deployment, and during the deployment, and especially 
following the deployment, our Yellow Ribbon Program, now 
mandated by the National Defense Authorization Act of 2008, 
assists the soldiers and their families in gaining access to 
information, services, referral and proactive outreach 
opportunities throughout the entire deployment cycle.
    This is a departure from past deployments in that it's 
phased throughout the deployment cycle. Not just at the end of 
the deployment. The four phases include pre-deployment, 
deployment, demobilization, and post-deployment reconstitution. 
Our major supporting commands, our direct reporting units, the 
brigades, the battalions, and their subordinate units, are 
staffed with the personnel to assist in the coordination of 
reintegration.
    The Department of Defense is aware of our challenges in 
administering this program. The Army Reserve is proud of its 
family portals. The Web site contains a wealth of information 
and Web links to assist the family whether the soldier is 
deployed or not. This Web portal is emphasized through various 
commanders' conferences and contact with family members and our 
strong family program coordinators. Our relationships with 
various employers cannot be understated. The Chief of Army 
Reserve, Lieutenant General Stultz, takes an active role in 
nurturing these relationships, ensuring employers realize not 
only how much we value their support but also informing them of 
the value added of hiring and maintaining Army Reserve 
soldiers.
    The Army Reserve today and the VA have fostered an 
excellent relationship, grassroots type, through programs such 
as the Post Deployment Health Reassessment events. They're not 
all phone-in events. There are many events that are scheduled 
at our Reserve centers and the VA is always on site as needed. 
I wanted to add that. Last weekend, we attended the VA right 
here in Washington, DC's welcome home celebration. General 
Stultz was a keynote speaker. And the VA is also part of the 
Army Medical Action Plan's Committee along with us. The VA's 
also working to include us with their new disability evaluation 
program that's just kicked off over at Walter Reed. And last 
fall, the Army Reserves kicked off its Warrior Family 
Assistance Center, where we have a centralized family 
assistance program. Not in every State, but where the soldiers 
and their families can call into our headquarters down at Fort 
McPherson.
    So these programs serve as a safety net, just not for the 
soldiers but for their families as they move through the 
deployment cycle. Again, thank you for this opportunity and I 
look forward to answering your questions.
    Mr. Mitchell. Thank you. Sergeant Major Salotti?

           STATEMENT OF SERGEANT MAJOR JANET SALOTTI

    Sergeant Major Salotti. Good afternoon, Mr. Chairman. I am 
Retired Sergeant Major Janet Salotti. I'm the Chief of the 
National Guard Bureau's Reintegration Office as well as the 
National Guard's Representative in the Secretary of Defense's 
Office of Reintegration. I am here today to respond to the four 
written questions that the Committee sent to Lieutenant General 
Blum, Chief of the National Guard Bureau.
    In regard to your question regarding how the number of 
National Guardsmen that are deployed and what the National 
Guard Bureau is doing to reintegrate these returning 
servicemembers, over the past 7 years more than 270,000 members 
of the Army and Air National Guard have deployed overseas. Of 
those, more than 68,000 have deployed more than once. Right now 
there are more than 33,000 Army and Air National Guard 
Personnel ordered to duty overseas.
    Title 10, section 1142 requires pre-separation counseling 
for all members of the armed forces who serve 180-plus days of 
active duty. Mandatory pre-separation counseling covers 
healthcare, education, VA, and employment benefits. In most 
cases, this transition assistance is currently provided for 
Guardsmen and Reservists returning from an extended combat 
deployment in briefings at the demobilization station before 
they reconnect with their homes, families, and civilian jobs. 
However, a May 2005 U.S. Government Accountability Office (GAO) 
report found that enhanced services could improve transition 
assistance for the Reserves and National Guard. The report 
concluded that members of the Reserve and National Guard get 
information similar to that provided to our separating active 
component servicemembers but not the time to participate fully 
in a transition assistance program.
    In response to this need for better support, the National 
Guard in several States built programs to augment the Federal 
transition support program. The National Guard Bureau provided 
some of the funds used to do this. In some cases, State 
governments have provided funds of their own. So far during the 
current fiscal year, the National Guard Bureau has distributed 
a total of $4.9 million to over 20 States so that they can 
execute their reintegration activities. Additionally, several 
other States have conducted reintegration events without 
Federal funds.
    In the fall of 2006, the National Guard Bureau led a 
working group that captured the local demobilization and 
transition support best practices of the first nine States to 
build their own programs. With the encouragement of the 
National Guard Bureau six additional States have organized 
their own programs. Last year's National Defense Authorization 
Act requires DoD to establish a Yellow Ribbon Reintegration 
Program. Since the National Guard Bureau had already created a 
template based on the best practices of existing programs, the 
Bureau offered its template and to contribute manpower to the 
Office of the Assistant Secretary of Defense for Reserve 
Affairs to help staff a Yellow Ribbon Program Office in order 
to implement the requirements of the NDAA for fiscal year 2008. 
OSD decided to create its own guidance instead.
    In May of this year, in the absence of any guidance from 
OSD, the Chief of the National Guard Bureau provided to the 
States interim program guidance for conducting reintegration 
activities in the Army National Guard. NGB is in the process of 
formulating interim guidance for the Air National Guard as 
well. While not all soldiers and airmen currently receive the 
benefits of the program, the bottom line is that using the 
resources the National Guard has, we are quickly working toward 
this goal.
    You asked if the National Guard had received any funding or 
instructions for the implementation of the Yellow Ribbon 
Program. Assistant Secretary of Defense Hall sent a 3 March 
2008 letter to the Chief of the National Guard Bureau, among 
others, stating the Department of Defense is committed to 
establishing a new office for the Yellow Ribbon Reintegration 
Program and fielding services under the program no later than 
the fourth quarter of this year.
    You also wanted to know about our relationship with the 
Department of Veterans Affairs. The National Guard Bureau has a 
3-year-old memo of understanding with the VA defining how to 
share information and work together. This memo is a template 
that most States and territories have adopted to define their 
own relationship with the VA. In these agreements the Bureau, 
VA, and the States agree to assist each other at the local and 
national level to provide transition services to Guard members. 
Forty-seven States and territories have signed a memo. Five 
more are developing agreements. And two States believe that a 
formal agreement is not necessary given the close relationship 
between the VA and the local Guard Bureau.
    And you further asked where the greatest unmet National 
Guard needs for the Yellow Ribbon support. In the next year and 
a half, there are elements of 12 National Guard brigade combat 
teams from 11 different States scheduled to deploy. Eight of 
those States do not have a well developed reintegration 
program.
    Mr. Mitchell. Thank you very much. Major General Mathewson-
Chapman?

     STATEMENT OF MAJOR GENERAL MARIANNE MATHEWSON-CHAPMAN

    Major General Mathewson-Chapman. Good afternoon, Mr. 
Chairman and Members of the Subcommittee. Thank you for 
inviting me to speak about the cooperation between the 
Department of Veterans Affairs, VA, the Department of Defense, 
DoD, the National Guard and the Reserves. From the start of 
fiscal year 2002 through the first quarter of 2008, slightly 
more than half of the returning servicemembers from Operation 
Enduring Freedom/Operation Iraqi Freedom were members of the 
Reserve or the National Guard. I am pleased to report VA and 
DoD are coordinating their efforts more closely than ever to 
ensure our newest veterans reintegrating into their communities 
are being offered all of the benefits and services to which 
they are eligible. I am accompanied by a team of subject matter 
experts if you have specific questions for each one of them and 
they have already been introduced.
    My written statement, which I ask be submitted for the 
record, provides a detailed description of VA's outreach 
efforts for non-severely injured National Guard and Reserve 
members during the four phases of the deployment cycle. And we 
have a graphic for you to look at.
    [Slide]
    Major General Mathewson-Chapman. And we've taken only four 
phases from the deployment cycle. The pre-deployment phase, 
during deployment at the demobilization sites, immediately 
post-deployment, and on a continuing basis throughout the 
lifetime of the veteran. Please note this slide and also the 
four phases of the deployment cycle. In each one of these 
phases VA works closely with families, communities, counties, 
State governments, to coordinate efforts and ensure that we 
cast a net as wide as possible to inform our Nation's veterans 
of VA's services, benefits, and healthcare.
    During the pre-mobilization phase, VA supports efforts for 
early contact to National Guard members, Reserve members and 
family members during the pre-mobilization phase of deployment. 
Members and families learn about VA's services and benefits 
during the Soldier Readiness Processing, (SRP) events held 
prior to mobilization. This outreach effort continues 
throughout the deployment phase as VA collaborates with each 
military service, family members, and programs, and other 
training events. Families are a vital force in guaranteeing 
veterans know how to access the care and services they need. VA 
works with the National Guard family programs and many VA 
facilities conduct continuous welcome home events and town hall 
meetings for returning servicemembers and their families.
    Moreover, everyone inducted into the five military branches 
since November of 2004 has received a VA benefits pamphlet at 
the Military Entrance Processing Station. This pamphlet 
provides basic information on VA benefits and services at the 
start of their early military career.
    Our latest efforts to expand services during the deployment 
phase represents collaboration between the two departments as 
we stand up a comprehensive standardized process for VA 
enrollment during the mandatory demobilization enrollment 
procedures at 12 Army sites. This pilot program began in May 
28, 2008, and through the first half of June has already 
contacted more than 1,000 separating members of the National 
Guard or Army Reserves at Fort Bragg, North Carolina, and Camp 
Shelby, Mississippi. VA has enrolled approximately 80 percent 
of these veterans and we plan to expand this program to the 
other services over the next few months.
    During the demobilization process, VA also participates in 
the Transition Assistance Program, and the DTAP programs and 
briefings where servicemembers again are informed of the array 
of benefits and services available to them. They are also 
instructed in how to complete the VA enrollment application and 
VBA staff advise on what evidence is needed to support their 
disability claims.
    During the post-deployment phase VA and DoD conduct the 
Post Deployment Health Reassessment as was just mentioned 
earlier for Guard and all of the Reserves. VA's PDHRA event is 
threefold. We enroll servicemembers. We provide information on 
VA benefits and services and provide assistance in scheduling 
followup appointments. Almost 73 percent of the Reserve 
component PDHRA referrals were either to a VA vet center or a 
VA medical center.
    In addition to TAP, DTAP, PDHRA and welcome home events at 
VA Medical Centers, VA conducts direct outreach by telephone as 
part of the Secretary's recently announced Combat Veteran Call 
Center Campaign to contact every OEF/OIF veteran, including 
members of the National Guard and Reserve who have separated 
from service but who have not yet enrolled in VA healthcare. 
Local OEF/OIF Program Managers at VA facilities and network 
representatives are provided referrals in their geographical 
areas to conduct followup contact should the veteran want 
additional information about enrollment, VA benefits, or other 
types of services.
    Since May of 2005, as was also mentioned, VA has partnered 
with the National Guard with a national memorandum of 
understanding to allow access for VA staff members to educate 
troops and families on VA benefits and services. In 2006, we 
participated and trained the 54 transition assistant advisors 
who were hired by the National Guard and trained by VA to 
provide our conduit, our link, to the National Guard and 
Reserves in the State to provide information and conduct 
outreach in each State and facilitate referrals for VA 
healthcare and benefits.
    Additionally, outreach materials are distributed to 
National Guard and Reserve members in collaboration with DoD. 
VA published and distributed one million copies of a new 
brochure that summarizes healthcare and other benefits 
available to members of the National Guard and Reserve when 
they return back to their civilian life.
    VA's mission is to care for those who have borne the battle 
and it is a mission we take very seriously. Every day our 
clinicians and staff are developing robust strategies and 
outreach to distribute information to National Guard and 
Reserve members in collaboration with DoD. We thank the 
Subcommittee for their interest in this matter and we thank DoD 
for their cooperative efforts in supporting our newest veterans 
who are members of the National Guard and Reserve. This 
concludes my prepared statement. My colleagues and I are ready 
to answer any questions you may have on this topic.
    [The prepared statement of Major General Mathewson-Chapman, 
and the referenced slides, appear on p. 40.]
    Mr. Mitchell. Thank you very much. And Major General 
Mathewson-Chapman and the support you have with you, my first 
question is for all of you. And I have heard what you are 
talking about, all of the efforts you have made. But, if you 
heard the first panel, one of the things they said over and 
over is they do not know about this stuff. There seems to be a 
lack of, you have all this printed material, you have all these 
people on staff, but it is not getting down to the people who 
need it. Last week Secretary Peake lifted a decades old ban on 
the authority to purchase media advertising, allowing the VA to 
use TV media for outreach. This is important for reaching 
veterans that are widely dispersed. Will you be able to use 
this new authority? And let me ask, it is a couple part 
question so I am going to ask it all at one time. Will you be 
able to use this new authority to advertise the reintegration 
programs? That is one. Two, I know the Disability Assistance 
and Memorial Affairs Subcommittee of the Veterans' Affairs 
Committee requested an outreach plan due last October and has 
yet to receive that plan. Will you have a preliminary plan for 
the TV outreach available by the second week in July? And the 
third question, I would like to ask you to please integrate 
this new authority into that plan to show explicitly how it 
would be paid for with the current budget authority.
    Major General Mathewson-Chapman. Mr. Chairman, I'll have to 
take that for the record. We just heard about this last week so 
we haven't formulated a full plan yet on how this is going to 
be instituted.
    [After consultations with VA, the Subcommittee staff has 
learned that the oversight plan for media outreach is coming 
out in December and will be provided to the Subcommittee at 
that time.]
    Mr. Mitchell. My understanding is that you will implement 
this, the TV? I mean, I understand, you have the authority to 
buy TV and as Mr. Campbell said earlier there is an outreach by 
his group and other VSOs to go not only on TV but also online 
with other types of media. And they would hope that there would 
be some cooperation so that they could have a full blown 
program that people can understand what the services are that 
you are providing that many of them are not taking advantage of 
because they do not know about it.
    Major General Mathewson-Chapman. Absolutely.
    Mr. Mitchell. The next question I have is for Sergeant 
Major Salotti. You stated that General Hall sent a letter March 
3 this year to Lieutenant General Blum stating OSD's commitment 
to establishing a new Yellow Ribbon Reintegration Program 
Office no later than the fourth quarter of this year. The 
fourth quarter begins in less than 2 weeks. Has OSD provided an 
updated timeline on establishing this office or provided 
guidance on setting up nationwide Yellow Ribbon Reintegration 
Programs?
    Sergeant Major Salotti. No sir, they have not.
    Mr. Mitchell. Thank you. And Colonel Ritter, is it accurate 
to say that the Army Reserve is waiting for OSD to provide 
guidance and funding? And have you been given any indication as 
to when OSD is going to do that?
    Colonel Ritter. No, we have not. We have formulated our own 
plan, though, and put together what we're going to do with our 
Yellow Ribbon Program and identified a budget for it.
    Mr. Mitchell. Sergeant Major Salotti, one last question. 
Yellow Ribbon Programs require funding. Has OSD given you 
resources to implement these programs, or information about how 
OSD intends to fund these programs?
    Sergeant Major Salotti. No sir, they have not.
    Mr. Mitchell. Thank you. Colonel Ritter, is the Army 
Reserve capable of tracking the location of every member of a 
Reserve unit after it demobilizes and making sure that every 
member received reintegration assistance?
    Colonel Ritter. Yes sir, we are. And going back to the 
325th Combat Support Hospital, I have a break out with me right 
now to show where those soldiers dispersed to throughout the 
country by State. I can show you between Independence, 
Missouri, Kansas City, Springfield and Columbus and others, if 
you'd like to, we can track our soldiers.
    Mr. Mitchell. And one last one, Colonel Ritter. Does the 
Office of Chief of the Army Reserve have reintegration programs 
in place?
    Colonel Ritter. I want to answer that, we have some of the 
safety nets I spoke about in place, like PDHRA, part of our 
reintegration program, as we roll it out. But the plan right 
now is being implemented.
    Mr. Mitchell. Thank you. Congresswoman Brown-Waite.
    Ms. Brown-Waite. Thank you, Mr. Chairman. Sergeant Major 
Salotti, how can you run a program of reintegration if you do 
not even know what the guidelines are and what your funding 
amount is going to be? Did I understand it correctly? And I am 
not criticizing you. I am just imagining someone being in your 
position. How do you do what you have to do without having the 
known resources?
    Sergeant Major Salotti. Ma'am, the National Guard is 
actually running its own vision by virtue of the fact that I 
was very instrumental in the legislation in working with 
Representative Kline's office and working with the model States 
that were already using programs, Minnesota in particular, sir. 
We are doing an estimate, if you will, based on what our States 
are providing us on what it is currently costing them to 
actually run their programs. Working very closely with the Army 
Guard, the Army Guards program is very robust. And as I said we 
are also starting to work with the Air Guard to implement a 
similar program for them. So we are using estimates from our 
States as well as what the Army Guard is already familiar with 
as to what they have currently spent on the program in order to 
do an estimate of what it would take for the Guard Bureau to 
continue the project that we have been doing now for the last 
eighteen months or so.
    Ms. Brown-Waite. Okay. In States like Florida so much of 
the funding is actually appropriated at the State level. What 
kind of Federal funding, and VA and/or DoD if you would respond 
to this, what kind of Federal funding do you anticipate may be 
needed to move this program to a national program so that all 
States participate? And also, with PAYGO, where should the 
funding for such a program come out of? I would just like your 
suggestions. It is our job to find it, but where would you 
suggest?
    Sergeant Major Salotti. Ma'am, we share the exact same 
concerns that you have in regards to that. Right at this 
particular moment, I don't have any suggestions for you because 
we are looking into it as well.
    Ms. Brown-Waite. Have the costs for New Hampshire or 
Minnesota, can you give us some idea of what those costs were? 
I have heard that they were $1 million. Is that accurate?
    Sergeant Major Salotti. Yes, ma'am. That would be accurate 
as a matter of fact. Very, actually in excess in some cases 
particularly with Minnesota's program.
    Ms. Brown-Waite. Okay. Again, I would ask about the TAP 
program. If the representative, if Colonel Ritter and Major 
General Mathewson-Chapman, if they believe that the TAP program 
should be mandatory for all branches of the service, not just 
the Marines who have stepped up and made it mandatory? A yes or 
no would do.
    Colonel Ritter. Based on the last testimony, I believe yes. 
Yes. I haven't really thought about if it should be a mandatory 
program or not. And that's why I hesitated. I have really not 
thought about that question.
    Ms. Brown-Waite. Are any attempts being made to make it a 
mandatory program?
    Colonel Ritter. It's managed as a requirement, but not 
mandatory, as they go through a processing.
    Ms. Brown-Waite. It is, let me make sure I understand this. 
It is a requirement?
    Colonel Ritter. Right.
    Ms. Brown-Waite. Like I am required to pay taxes? I am 
required to pay taxes but it is also mandatory that I pay 
taxes. So help me, help me split that very fine hair here.
    Colonel Ritter. Okay, I will rephrase that. I agree that it 
should be mandatory.
    Ms. Brown-Waite. Well, I will rephrase. What are you doing 
to make it mandatory?
    Colonel Ritter. I'll take that back to the leadership, 
ma'am.
    [The following was subsequently received from DoD:]

          The Army Reserve is committed to ensuring a successful 
        transition for returning Reserve Soldiers. Through Army Reserve 
        Employer Partnership Initiatives and Employer Support of the 
        Guard/Reserve programs, many Army Reserve Soldiers return to 
        their previous employers upon completion of their deployment. 
        Therefore, the TAP should remain a voluntary program for those 
        few Army Reserve Soldiers who are without civilian employment 
        or need transition assistance. With additional funding, the 
        Army Reserve would support a Web-based modified TAP activity 
        that could be incorporated as part of the Yellow Ribbon 
        Reintegration Program. This modified TAP would be a partnership 
        among the DoD, VA and DOL consisting of information focused on 
        job assistance and related services, with goals of increasing 
        employability, awareness of education, and volunteer 
        activities. Individual transition plans help Soldiers achieve 
        realistic career and personal goals.

    Ms. Brown-Waite. Okay. Thank you.
    Colonel Ritter. I don't know, I don't know if I have a 
timeline on that.
    Ms. Brown-Waite. Okay. Major General?
    Major General Mathewson-Chapman. I would just like to 
comment on the TAP. Being a 30-year Guardsman myself, the TAP 
was really developed for active duty, as they were 
transitioning out they might have 6 months or so to attend the 
TAP briefing. What we're finding with the Guardsmen at the 
demobilization site, again it was not mandatory but highly 
recommended. Again, there could be potentially times that they 
are offered, on a Monday morning after they had been flying all 
night and they just arrived there, and now you have to listen 
to different TAP briefings. It's also been criticized that, 
again, Department of Labor talks about the wonderful job 
opportunities at Fort Dix but I'm from Kansas. So when I do get 
home, I find out things aren't so rosy as they said Fort Dix 
was because the TAP is geared for that local area. So the TAP 
briefings are conducted at an active-duty facility. And one of 
those twelves that we are now doing the demobilization 
briefings. So again, it's critical. Are they really, is the TAP 
really for the Guard and Reserve, or more active duty? There's 
now Turbo TAP that was developed by DoD to catch those others 
on the Internet. So you can still, again, learn about your 
benefits. I don't know how widely that's used. It's another 
option. Again, it's up to you to do that TAP briefings on your 
own, on your own time. But it is something. It is a time when 
you have them there. They're only there 3 to 4 days. They've 
got a lot of things on their plate for the Guard and Reserve. 
That's just one more thing that you're going to require but 
that's the best that we have right now, to get them to 
understand the benefits, except of demobilization program that 
we're doing now, when they are learning about VA benefits. 
We're getting them enrolled. So we're starting the first piece, 
to finally learn about VA and what their benefits are.
    Ms. Brown-Waite. Question, so are you at the demobilization 
sites?
    Major General Mathewson-Chapman. Yes, we are at the twelve 
Army demobilization sites now. We have now been granted access 
on the mandatory briefings that all troops have to go through. 
Part of that, usually the second day, they get there the 1st 
day, the second day. They continue to have VBA briefings. Some 
of that is a mini TAP. The Vet Center representatives are 
there. They talk about Vet Centers. And then we from VHA are 
there to provide a 10-minute briefing on healthcare benefits 
and instruct it in how to complete the 10-10EZs. Collect them, 
and then process those forms back and send them to the facility 
they want to receive their care. That is ongoing now. It began 
May 28th. And it's continuing now. The 12 sites, we're getting 
to roll this out to the Marines, and then the Navy and the Air 
Force Reserve by fall.
    Ms. Brown-Waite. Thank you very much. I appreciate the fact 
that you answered. Thank you.
    Mr. Mitchell. Congressman Walz.
    Mr. Walz. Well, again, thank you all for being here. I am 
very appreciative of that. But I think we need to cut straight 
to the chase. There is a chair that is empty and that is the 
Department of Defense and I have very little time and very 
little patience for that. I will be very clear when we start 
discussing PAYGO and how we are going to fund this. This is a 
cost of war. We authorized $170 billion last week. President 
Bush put zero in his budget for this program. Make no mistake 
about it, when we are asked to take this out from somewhere 
else--the Department of Defense has a responsibility for this, 
not to wash their hands of these warriors when they leave the 
system and say, ``We do not care what happens to them, 
especially the National Guard.'' So the questions need to be 
directed at the empty chair today and we will get to them and 
we will ask them. Because the issue of how we are going to fund 
this, since the time we have been here we have spent more than 
that in Iraq. And I do not care what your feelings are toward 
the War. This is an absolutely proven integration program. 
General Blum's estimates on what it would cost and the 
reintegration programs, they were mandated by Congress. If DoD 
does not like it, we are getting the same thing.
    Let me ask a couple questions here, and Sergeant Major I 
have to tell you, I was out at Walter Reed a while back and I 
got introduced as a former Sergeant Major who is now in 
Congress and a young trooper said, ``I am sorry.'' And I said, 
``Why is that?'' And he said, ``You got demoted.'' And so I 
appreciate you being here. I also want to say how much I 
appreciate the Guard Bureau being proactive on this. I have 
watched this happen myself and I have seen the results of this. 
I see the surveys coming back from the families. And I have a 
couple of questions.
    Is it true that National Guard Bureau actually offered 
their best practices, lessons learned to DoD?
    Sergeant Major Salotti. Yes sir, it is.
    Mr. Walz. And what did they do with those?
    Sergeant Major Salotti. As I mentioned in the beginning 
question, sir, when we offered OSD the template for them to 
use, the decision was made that they would come up with their 
own program.
    Mr. Walz. Okay, and they have a lot of experience in that 
with National Guardsmen out in the community, I am assuming?
    Sergeant Major Salotti. I do not know the answer to that, 
sir.
    Mr. Walz. Okay. And they provided what guidance then to 
you, just so you could formulate this? Because as we speak, we 
have tens of thousands coming back through the rotations?
    Sergeant Major Salotti. We have not received any official 
guidance from OSD, sir. We have taken our----
    Mr. Walz. But they have 6 days to get it done.
    Sergeant Major Salotti. Yes, sir.
    Mr. Walz. Okay. Well, maybe we are jumping the gun, 
Chairman. If you are a Guardsman right now, in your honest 
assessment, and your knowledgeable assessment of this, if you 
are a Guardsman, if you are one of these troopers, does it 
matter what State you go to war in and come back in? Does it 
matter how you are going to be reintegrated into society on the 
way the system is set up right now?
    Sergeant Major Salotti. No sir, it will not other than the 
specific benefits that are provided by the State. Because the 
Guards----
    Mr. Walz. But does it as of today, if I were to mobilize 
and come back through Minnesota as opposed to another State, 
would my experience be different today?
    Sergeant Major Salotti. Yes, sir.
    Mr. Walz. Will one of those soldiers be better off and have 
a better chance at reintegration?
    Sergeant Major Salotti. No, sir. I think that would be 
equal regardless of the State that you deploy from.
    Mr. Walz. So it does not matter now? So these States that 
are implementing this are not making any difference?
    Sergeant Major Salotti. What the States are doing, sir, is 
taking the guidance that we have provided to make----
    Mr. Walz. Okay.
    Sergeant Major Salotti [continuing]. A standard program----
    Mr. Walz. I see what you are saying.
    Sergeant Major Salotti [continuing]. That is geared toward 
that State.
    Mr. Walz. Well this gets back to the question that came up 
once before and my colleague from San Diego was mentioning. In 
your opinion, is there a need for unified best practice 
research centrally? Because I heard our soldiers say with this 
generation, especially IAVA, that the centralization of this, 
the uniformity of this, the ability to get there would be 
helpful to them. Is it your opinion that we should give out 
grants and let individual organizations do this? Or should we 
focus through the best practices of NGB and the Reserves and 
bring it that way, so that seamless transition from DoD to VA 
is there? I guess I am asking an opinion. It is subjective. You 
have seen this enough, Sergeant Major, to know.
    Sergeant Major Salotti. In my opinion, sir, the Minnesota 
model is the way to go.
    Mr. Walz. Okay. And my last question on this, because I 
hear this often, and this goes to Colonel Ritter. I think you 
have a much more challenging situation with your troops because 
of the nature of the Reserve. And I think the general public is 
somewhat ignorant of the fact of how this reintegrates. And 
what I am starting to hear from the parents and the families of 
reservists and then to the active duty is, you are doing a 
fantastic job in Minnesota with the National Guard but you are 
separating our Reservists away from that. Would that be your 
experience? That it, there is more challenges because of the 
Federal nature of your----
    Colonel Ritter. Oh, absolutely, sir. It is quite a 
challenge to manage this across the country. We do work closely 
with our Guardsmen of all services to even, to do events 
together.
    Mr. Walz. Yes.
    Colonel Ritter. And we do look to the States that our 
Reserve units are in and the help from our constituents there 
also. But anything to help reintegrate the soldiers back into 
their communities, back with their families, we are open to the 
plan and the national plan. And we look forward to it.
    Mr. Walz. And my final question is, this may not be the 
right group today, but something we are starting to look at. 
Are you seeing a reflection in retention rates on how well you 
do reintegration? Sergeant Major, do you have anything at least 
in the beginning on this?
    Sergeant Major Salotti. Absolutely, sir. This is definitely 
a retention as well as readiness issue as far as the National 
Guard.
    Mr. Walz. And is it financially cheaper to keep a soldier 
in than it is to recruit a new one and train them?
    Sergeant Major Salotti. Absolutely, sir.
    Mr. Walz. So in the long run, we would save money, probably 
if we did this, correct? If we kept them in by reintegrating 
them?
    Sergeant Major Salotti. Most definitely, sir.
    Mr. Walz. All right. I yield back, Chairman.
    Mr. Mitchell. Thank you. Congressman Bilbray.
    Mr. Bilbray. Mr. Chairman, I went so over my time I will 
yield back and I figure I am even. So thank you very much. I 
appreciate it. I appreciate the panel and I have no questions.
    Mr. Mitchell. Thank you. And again, I would like to give 
you my thanks and the panel's thanks for not only the service 
you have given to our country, two of you are retired. But 
also, now, what you are doing. Your service to the 
organizations that are trying to help us overcome what I think, 
what we all think, is a real problem. So thank you so much for 
your testimony, and good luck to you all. And this concludes 
the hearing.
    [Whereupon, at 3:37 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

             Prepared Statement of Hon. Harry E. Mitchell,
         Chairman, Subcommittee on Oversight and Investigations

    We are here today to address what the Department of Defense and the 
VA are doing to help members of the National Guard and Reserves 
reintegrate into civilian life after their return from deployment to 
the combat theater. Members of Guard and Reserves units tend to 
disperse much more widely upon their return than those in active duty 
units and it is more difficult to ensure that they receive the services 
and benefits that they need and have earned. The need for DoD and VA to 
work together to assist returning Guard and Reserves members, and their 
families as well, is especially acute in today's environment, where the 
Guard and Reserves are serving at the same operational tempo as active 
duty units. Fully half of OIF and OEF veterans are members of the Guard 
or Reserves.
    When Guard and Reserves members return home, they return to their 
pre-existing civilian lives. Most are married and many have children. 
Reconnecting with families and communities can be difficult. The skills 
and emotional attitudes that are essential in a combat environment can 
be disastrous if brought back to civilian life. Veterans in the Guard 
and Reserves, just as those in active components, have educational and 
other benefits that are their rightful due for having served their 
country. Assisting these veterans and their families in reintegrating 
into civilian life, and ensuring they receive the benefits they have 
earned requires close cooperation between DoD, VA, and, in the case of 
the National Guard, the States. Assisting veterans and their families 
means that VA needs to be present at demobilization sites; that 
returning Guard and Reserves units be engaged in, and be paid for, 
reintegration activities at 30, 60, and 90 day intervals after 
demobilization; that families be fully involved; that DoD, VA, and the 
States fully cooperate and participate in the reintegration events; and 
that DoD, VA, and the States engage in outreach to ensure that all 
Guard and Reserves veterans and their families know about the services 
and benefits available to them and get what they need and deserve.
    Congress recognized these needs in the most recent National Defense 
Authorization Act. The NDAA mandates the 30, 60, and 90 day 
reintegration program and outreach. The NDAA also requires DoD to 
create an Office of Reintegration Programs within the Office of the 
Secretary of Defense and a Center of Excellence in Reintegration within 
that office. The National Guard Bureau and Reserve Affairs are still 
waiting for policy guidance from that office so they can proceed.
    There are a number of States that have first class programs. VA and 
the National Guard Bureau are active participants in these programs, 
but only a minority of States have them. At the national level VA and 
the National Guard Bureau, DoD Reserve Affairs, and the Office of the 
Secretary of Defense do not appear to be talking at all. This must 
change, and it must change now.
    Let me give you a very recent example that illustrates how 
important it is that DoD and VA take on this mission. Just last week, 
the 325th Combat Support Hospital, an army reserve unit based in 
Independence, Missouri, returned from a 10-month tour of duty in Iraq. 
CSH [CASH] units experience the absolute worst that war has to offer on 
a daily basis. Combat health care providers, as much if not more than 
combat and other support units, require the best post-deployment 
support that we can provide them. The 325th CSH, while deployed, is 
composed of four Reserve subunits from across the country. In addition, 
many members of the just-returned unit were cross-leveled--that is, 
shortages of personnel in the 325th were filled by Reservists from 
other CASH units from around the country. So in order to make sure that 
all of the members of returning units are provided reintegration 
services, DoD and VA must work closely together and be prepared to 
deliver those services at multiple places nationwide. This is no easy 
task but it absolutely must be done. Our Guard and Reserves service 
members leave their civilian lives and their fami-

lies and put themselves in harm's way in order to protect our Nation. 
We have a moral obligation to take care of them when they come back 
home.

                                 <F-dash>
   Prepared Statement of Hon. Ginny Brown-Waite, Ranking Republican 
          Member, Subcommittee on Oversight and Investigations

    Thank you Mr. Chairman.
    Mr. Chairman,
    I appreciate you holding this hearing on how well VA and the 
Department of Defense are cooperating in the reintegration of National 
Guard and Reserves. As we know, ``seamless transition'' of our 
servicemembers has not always been a smooth road to plow, and it is 
equally important for us to review how this transition is occurring for 
our National Guard and Reservists, as well as for our active-duty 
servicemembers.
    In each State, the National Guard Bureau support is run 
independently, and each State provides varied programs to support their 
returning Guard and Reservists. In my own State of Florida, we have a 
very robust State sponsored program for soldier support for our 
National Guard units. In July of 2005, the Florida State legislature 
appropriated funding to establish the Florida Armed Forces Reserves 
Family Readiness Program Assistance Fund (FL AFR FRPAF) to assist the 
families of servicemembers during their deployments on as-needed bases. 
This program, available to Florida residents serving in all branches of 
the military, provides much needed assistance to the families of our 
servicemembers, who may experience unexpected financial hardships 
during their loved one's mobilization, and ensures the families have 
the resources needed to sustain themselves while the servicemember is 
away.
    I would like to commend my colleague, Congressman John Kline of 
Minnesota for his efforts in developing the Yellow Ribbon Initiatives 
to establish a DoD-wide Deployment Cycle Support program that provides 
information, services, referral, and proactive outreach opportunities 
for RC Service Members and Families throughout the entire deployment 
cycle. His legislation, H.R. 2090, would direct the Secretary of 
Defense to establish a national combat veteran reintegration program 
(to be known as the Yellow Ribbon Reintegration Program) to provide 
National Guard members and their families with information, services, 
referral, and outreach opportunities throughout the entire deployment 
cycle. This bill language was included in the National Defense 
Authorization Act for Fiscal Year 2008, which became Public Law 110-181 
on January 28, 2008.
    On June 7, 2008, the State of Florida held its first Yellow Ribbon 
event in Jacksonville, supporting the return of 90 Army National 
Guardsmen and their families. The Florida National Guard is currently 
working to implement the Minnesota Yellow Ribbon model as authorized in 
the National Defense Authorization Act for Fiscal Year 2008. It is 
programs like these that make the transition between the Department of 
Defense to the Department of Veterans Affairs easier for our 
servicemembers and their families.
    I look forward to learning more from our witnesses today on how 
they are implementing programs to serve our National Guard and Reserve 
components. These servicemembers play a significant role in the defense 
of our Nation and the freedoms we enjoy, and should be given all due 
consideration when we evaluate the programs that serve them.
    Thank you again, Mr. Chairman and I yield back my time.

                                 <F-dash>
     Prepared Statement of Patrick Campbell, Legislative Director,
                Iraq and Afghanistan Veterans of America

    Mr. Chair and members of the House Veterans' Affairs Committee, 
Subcommittee on Oversight and Investigations, on behalf of Iraq and 
Afghanistan Veterans of America (IAVA), thank you for this opportunity 
to testify in front of this Subcommittee, especially regarding an issue 
that affects me so personally.
    I also want to extend my heartfelt gratitude to the Chair and 
Ranking Member of this Committee who, by working together in a 
bipartisan manner, passed the largest increase in education benefits 
for veterans since the GI Bill was created 64 years ago. Our veterans 
and our Nation will benefit tremendously from your hard work.
    I am currently serving as a combat medic in the DC National Guard. 
I enlisted in the Army one month before we invaded Iraq and later 
volunteered to be deployed

to Iraq in 2004. For one year, I was attached to the 256 infantry 
Brigade, part of the Louisiana National Guard. I was assigned to a line 
unit and patrolled various parts of Baghdad.
    Three years ago today, we had just wrapped up a massive raid in our 
area of operations, in Northwest Baghdad. During that raid, my patrol 
unit was assigned to pull security, called an outer cordon, to ensure 
that no one attacked the other patrol group that was actually searching 
for the raid's target. I remember that night vividly. It was a clear, 
hot night and everyone was joking around that our unit finally got put 
on security and wasn't leading the charge. It was dark and well past 
curfew, the streets were desolate.
    About 2 a.m. an Iraqi man appeared out of the darkness and started 
walking toward us. The gunner assigned to guard that corner started 
yelling in English and broken Arabic for the man to stop. He just kept 
coming. He was close when the gunner fired a 5-round burst, with at 
least 2 tracers, right in front of the man to get him to stop. He just 
kept walking. At this point we all had our weapons trained on the man 
and I remember switching the safety off on my weapon.
    Then something peculiar happened . . . no one fired a shot. The man 
walked right through our check point, disappeared into the darkness 
without even acknowledging our presence. As soon as he walked by me I 
recognized the man as a local homeless guy who we always saw standing 
in the middle of an intersection down the street.
    To be honest not firing that night was probably the most foolish 
risk our unit took while we were in Iraq. I spent the rest of the night 
listening to our patrol's senior leadership berate the lower enlisted 
for not shooting a man who was out beyond curfew and not responding to 
verbal or physical warnings to stop. My team leader and the oldest of 
the enlisted laid it out very sternly, ``We were (expletive) very lucky 
this time, if he was suicide bomber most of us would be dead right now. 
Remember we are fighting a war and your enemy won't show you any mercy. 
Next time take the shot, dammit!'' Although I hated to admit it, he was 
right.
    That stern sergeant spent most our tour in Iraq keeping our guys in 
line and focused. I can say honestly that he saved my life more than a 
couple times. This man was one my best friends over there and he was 
mentor to me and to our entire patrol team. I looked up to him as any 
soldier looks up to an outstanding Noncommissioned Officer (NCO).
    Unfortunately, the next time I saw this sergeant was this past 
Memorial Day weekend and he was laying in a casket. Just over two years 
after being home, he took his life and was found floating in a boat on 
a lake. He had sent a text message cry for help to someone at the 
armory, but when they went looking for him it was too late.
    As a unit we came together for the funeral and many of us spent the 
weekend pondering how this well-respected NCO and our emotional bedrock 
while we were in Iraq could find himself so isolated from the rest of 
the world. The consensus in our unit was that the emotional callousness 
that a soldier must don with their body armor each morning was a lot 
harder for this sergeant to take off when he returned. I have heard it 
called psychological Kevlar. The numbness that worked so well in 
Baghdad became a severe hindrance at home.
    This hearing is about cooperation between the Departments of 
Defense (DoD) and Veterans Affairs (VA) in reintegrating our Reserve 
and National Guard forces. These departments have taken great strides 
over the past 7 years to help our returning citizen soldiers. But we 
are far from the finish line. As a National Guard soldier, this 
sergeant was both the responsibility of DoD and VA and he fell through 
the cracks.
    We must do better. Luckily, model programs are already in place.
    When the Minnesota National Guard returned home from a 22-month 
deployment in Iraq, the single longest deployment of any unit in this 
conflict, the leadership of that unit realized they an innovative 
reintegration plan. Their ``Beyond the Yellow Ribbon Program'' focused 
on the returning soldier and their families, and brought the full 
resources of this government together in one coordinated effort. This 
program included:

    <bullet>  mandatory mental health counseling and training for the 
servicemembers and their families;
    <bullet>  information about VA/DoD health care, jobs, and education 
benefits; and
    <bullet>  an opportunity for the unit to come together again in a 
non stressful environment during those critical first three months.

    This program was so successful that the Beyond the Yellow Ribbon 
program was included in last year's National Defense Authorization Act 
(Public Law 110-181). However the Department of Defense has failed to 
implement the program, because it was authorized but not funded. IAVA 
believes that Congress must work with DoD to accelerate implementation 
of this effective program.
    Only holistic approaches like the BtYR that focus on the 
servicemember and their family will ensure veterans are prepared to 
reintegrate into civilian life. But I'd also like to speak briefly 
about the key components of any reintegration program.
Mandatory Confidential Screenings Are Needed
    When my unit returned home October 2005, the Post Deployment Health 
Reassessment (PDHRA) did not exist. It was over a year and a half 
before I started receiving phone calls from the Army asking me to fill 
out a PDHRA. When I tried to fill out the form online I was told I had 
missed my window of opportunity. When they eventually got in touch with 
me over the phone, I remember having to answer very sensitive questions 
as I was walking through the aisles of a Barnes & Noble Bookstore, 
desperately trying to find a section devoid of people. The person 
interviewing me was not a mental health professional but rather a 
physician assistant with a couple days of on-the-job training.
    IAVA believes that every returning servicemember should be required 
to receive confidential face-to-face counseling with a licensed mental 
health professional within 6 months of returning home. My friend the 
stoic sergeant asked for help when it was already too late. We can not 
afford to keep waiting for veterans to self identify that they need 
help. Requiring mandatory counseling sessions is not a new concept. 
Many law enforcement and fire departments require such sessions after 
any type of traumatic event. We should be providing nothing less for 
our men and women serving in harm's way.
    I have heard the Department of Defense has started implementing 
immediate after action reviews with counselors for servicemembers who 
experience traumatic events in theatre. While I cannot comment on the 
efficacy of this program, I can say from personal experience that 
counseling will be most effective when it comes time to take off the 
psychological Kevlar, and that is during the months after returning 
home.
VA Needs to Expand Outreach Programs
    IAVA has advocated for years that the VA needs to stop being a 
passive system that waits for veterans to come in with their problems. 
Any successful outreach program would involve a multi-pronged approach 
that develops a relationship with the veteran before they need help, 
much like a successful college alumni association that starts 
developing ties with students before they even graduate.
    We are very encouraged to hear that the VA has listened to our 
recommendations and implemented a plan to contact every veteran of Iraq 
and Afghanistan who is no longer on active duty and has not approached 
the VA for health care needs. This almost informal check-in has already 
yielded encouraging results and we look forward to hearing from the VA 
about what they learned from these calls to almost half a million 
veterans.
    This call program must be a first step in building a relationship 
with our Iraq and Afghanistan veterans and not the entire outreach 
program. There have been a number of efforts to free up the VA from 
bureaucratic rules that supposedly prevented them from launching a mass 
media campaign to start bringing in new veterans into VA care programs. 
Section 1710 of the National Defense Authorization Act clarified this 
issue and IAVA implores the VA to launch a mass media campaign that 
educates and honors the service of our fighting men and women.
DoD and VA Need to Declare War on Mental Health Stigma
    The Department of Defense and VA have stated publicly that battling 
mental health stigma is one of their top priorities. IAVA was pleased 
to see DoD start a series of stigma reduction programs within the 
military, and very publicly change the questions to their security 
clearance forms to ensure that servicemembers were not penalized for 
seeking counseling.
    However these forays have amounted to minor skirmishes in a larger 
campaign to battle stigma. IAVA believes that new Center of Excellence 
for PTSD should greatly expand DoD and VA's stigma reduction campaign. 
We at IAVA are also doing our part. To de-stigmatize the psychological 
injuries of war, IAVA has recently partnered with the Ad Council to 
conduct a three-year Public Service Announcement campaign to try and 
combat this stigma, and ensure that troops who need mental health care 
get it.
Conclusion
    Guard and Reservists straddle the uncomfortable line between the VA 
and DoD.

Only through joint coordinated efforts between these two departments 
will we ensure that veterans like my friend no longer fall between the 
cracks.
    Respectfully Submitted.

                                 <F-dash>

     Prepared Statement of Joseph C. Sharpe, Jr., Deputy Director,
             National Economic Commission, American Legion

    Mr. Chairman and Members of the Subcommittee:
    With the ending of the Cold War, the Department of Defense (DoD) 
dramatically downsized its personnel strength. In 1990 Congress, in an 
attempt to assist separating service members in making a successful 
transition back into the civilian workforce, enacted Public Law (P.L.) 
101-510 which authorized the creation of the Transition Assistance 
Program (TAP). This law was intended to assist service members, 
especially those who possessed certain critical military specialties 
that could not be easily transferred to a civilian work environment, 
with educational and career choices.
    DoD's TAP and Disabled Transition Assistance Program (DTAP) are 
designed, in conjunction with Department of Labor (DOL) and the 
Department of Veterans Affairs (VA), to help prepare not only 
separating service members, but also their families for a seamless 
transition to civilian life. Last year, more than 386,200 service 
members were discharged from active duty status and over 500,534 
service members demobilized from active duty service. As mentioned, 
P.L. 101-510 (Chapter 58, Section 1142) mandates pre-separation 
counseling for transitioning service members. These programs consist of 
specific components: pre-separation counseling; employment assistance; 
relocation assistance; education, training, health and life insurance 
counseling; finance counseling; Reserve affiliation; and disabled 
transition assistance seminars. DTAP is designed to educate and 
facilitate disabled veterans to overcome potential barriers to 
meaningful employment. Currently, VA, DOL, and DoD operate 215 
transition offices around the world.
    While the TAP program assists transitioning service members leaving 
the military under their own accord, the DTAP program focuses on the 
specialized needs of the service members who are separating for medical 
reasons. The DTAP workshop is a half-day seminar sponsored jointly by 
DOL, DoD and VA. The workshop provides specialized information on VA's 
many disability benefits including:

    <bullet>  Medical Care
    <bullet>  CHAMPVA
    <bullet>  Disability Compensation
    <bullet>  Vocational Rehabilitation
    <bullet>  Disabled Veterans Insurance

    In this current era of a significantly smaller all-volunteer 
military, the reliance on the National Guard and Reserve to fight the 
present Global War on Terror is unprecedented. The Reserve forces have 
become an essential part of all current DoD operations. Reservists in 
Iraq and Afghanistan reflect a significant portion of the total 
deployed force in any given month, and DoD reports that continued 
reliance on the 1.8 million Reserve and National Guard troops will 
continue well into the foreseeable future. Attracting and retaining 
well qualified individuals to execute the fundamental functions of a 
strong and viable national defense is paramount. Without providing 
proper incentives for service members to enlist and reenlist, the 
military will continue to be hard pressed to effectively accomplish 
their Global War on Terror mission.
Medical Care / Disability Compensation:
    In the last several years, VA has improved its outreach efforts, 
especially its efforts to reach and inform active duty service members 
preparing to leave the military. The American Legion remains concerned, 
however, that a majority of transitioning service members, of the 
Reserves and National Guard, especially those returning from Operations 
Enduring Freedom (OEF) and Iraqi Freedom (OIF) are not being adequately 
advised of the benefits and services available to them from VA and 
other Federal and State agencies.
    Currently, Reserve and Guard members learn of their veterans' 
benefits by a variety of avenues, such as demobilizations and State 
reintegration briefings, post deployment health reassessments, and 
individual unit sponsored briefings. Unfortunately, VA efforts 
regarding TAP are hampered by the fact that only one of the services, 
the Marine Corps, requires its separating members to attend these 
briefings. This flag in the system did not escape the Veterans' 
Disability Benefits Commission (VDBC) and resulted in the 
recommendation that Congress mandate TAP briefings and attendance 
throughout DoD. The American Legion strongly agrees with that 
recommendation. In order for all separating service members to be 
properly advised of all VA benefits to which they may entitled, it is 
crucial that Congress adequately fund and mandate both TAP availability 
and attendance in all of the military services.
    VA also affords separating service members the opportunity to start 
the disability claims process, at least 6 months prior to separation 
from active duty, through its Benefits Delivery at Discharge (BDD) 
program. Unfortunately, this program is not available to all separating 
service members with service-related medical conditions as the program 
is only available at 140 installations, which totally bypasses 
separating members of the Reserves and National Guard.
Reservists Return to Find No Jobs
    National Guard and Reserve troops are returning from the wars in 
Iraq and Afghanistan only to encounter difficulties with their Federal 
and civilian employers at home. Many of these returning service members 
have lost jobs, promotions, benefits and, in a few cases, they have 
even encountered job demotions.
    According to the Uniformed Services Employment and Reemployment 
Rights Act, employers must protect the old jobs of deployed service 
members, or provide them with equivalent positions. Benefits, raises, 
and promotions must be protected, as if the service member had never 
left. In many cases this law has not been able to protect many 
returning service members across the country from the negative effects 
of long deployments. Service members would greatly benefit by having 
access to the resources and knowledge that TAP can provide, but the 
program should have stronger employment, mental health, and small 
business components.
The Effects of Reserve Call-ups on Civilian Employers and Veteran Owned 
        Businesses
    The impact of deployment on self-employed Reservists is tragic with 
a reported 40 percent of all veteran owned businesses suffering 
financial losses and, in some cases, bankruptcies. Many veteran owned 
small businesses are unable to operate and suffer some form of 
financial loss when key employees are activated. The Congressional 
Budget Office in a report titled The Effects of Reserve Call-Ups on 
Civilian Employers stated that it ``. . . expects that as many as 
30,000 small businesses and 55,000 self-employed individuals may be 
more severely affected if their Reservist employee or owner is 
activated.''
    Currently, the Small Business Administration (SBA) offers Military 
Reservist Economic Injury Disaster Loans. This program offers loans to 
businesses that meet certain eligibility criteria to help offset the 
economic consequences of the loss of their Reservist personnel. To 
qualify, a company must be able to show that the activated Reservist is 
critical to the success of the company. The American Legion recommends 
that the SBA should be part of any Reservist and National Guard TAP 
briefing, and act in an advisory capacity to those veterans who are 
small business owners, to assist them with resources and information to 
help lessen the impact of activation on their bottom line.
Education and the GI Bill
    Historically, The American Legion has encouraged the development of 
essential benefits to help attract and retain service members into the 
Armed Services, as well as to assist them in making the best possible 
transition back to the civilian community. On June 22, 1944, then-
President Franklin D. Roosevelt signed the Servicemen's Readjustment 
Act 1944, which later became known as the GI Bill of Rights. This 
historic piece of legislation, authored by the leadership of The 
American Legion, enabled veterans to purchase their first homes, attend 
college, and start private businesses. The emergence of the American 
middle class, the suburbs, civil rights, and finally a worldwide 
economic boom can be attributed to this important legislation.
    The majority of individuals who join the National Guard or Reserves 
enter the Armed Forces straight out of high school, and many are full 
and part time students. With the number of activations since September 
11, these same Reservists are discovering that their graduation will 
take longer than once anticipated. Currently, the Montgomery GI Bill 
pays the average Reservist $317 a month compared to his active duty 
counterpart who is paid $1,101 a month.
    With the rising cost of tuition, many Reservists must resort to 
commercial loans and other loans or grants to supplement the Montgomery 
GI Bill. When a service member is forced to withdraw from school due to 
military obligation, the commercial loan must still be paid regardless 
of whether the student finishes the course, adding to the accumulated 
debt of that service member.
    The American Legion recommends that TAP briefings include an 
education representative to provide National Guard and Reservist 
members this kind of information so they can avoid undue financial 
hardship.
The Servicemembers Civil Relief Act
    On December 19, 2003, the President signed into law a complete 
update of the Soldiers' and Sailors' Civil Relief Act (SCRA) 1940. This 
helps ease the economic and legal burdens on military personnel called 
to active-duty status in Operation Iraqi Freedom and Operation Enduring 
Freedom.
    Relief under SCRA extends to actions terminating leases, evictions, 
foreclosures and repossessions, default judgments, lower interest rates 
on credit cards and loans and protects against lapses or termination of 
insurance policies.
    With the military's increased reliance on National Guard and 
Reserve units, creditors residing in remote areas of the country 
outside of the traditional military towns are not aware of this Act, 
including members of the Reserve component. Therefore, service members 
are experiencing serious financial difficulties while on active duty--
their cars are repossessed, homes foreclosed and credit histories 
ruined because this piece of legislation is unknown.
    The American Legion has produced a brochure on active-duty legal 
rights, copies of which will be distributed across the country to 
service members, their families, and local community businesses which 
will improve their knowledge of the program; thereby alleviating some 
of the frustration, misinformation, and misunderstandings that could be 
avoided if TAP was a mandatory program. To their credit, Navy TAP 
representatives discuss personal financial planning during workshops 
and seminars. However, the Reserve components need to have this issue 
also addressed pre- and post-deployment.
Make TAP/DTAP a Mandatory Program
    DOL estimates that 60 percent to 65 percent of all separating 
active-duty service members attend the employment TAP seminars and 30 
percent of all separating National Guard and Reservists attend a 
portion of TAP. The American Legion believes this low attendance number 
is a disservice to all transitioning service members. Many service 
members and most National Guard and Reservists are unaware of the 
assistance and resources offered by TAP. Without this program, service 
members who have served their country bravely return to the civilian 
workforce less equipped than their counterparts who took advantage of 
the information provided by TAP. According to written testimony from 
John M. McWilliam, Deputy Assistant Secretary of Veterans' Employment 
and Training, Department of Labor, May 12, 2005, ``We have been working 
with the National Guard and Reserve on providing TAP services to these 
returning service members in many States on an informal and as-needed 
basis. In this regard, three Reserve Component TAP demonstration 
programs are underway in Oregon, Michigan and Minnesota.''
    DoD and DOL report that in Oregon 40 percent of those part time 
service members who attended the TAP session were looking for 
employment.
Access to TAP
    The Government Accountability Office (GAO) report, Enhanced 
Services Could Improve Transition Assistance for Reserves and National 
Guard, May 2005, reports TAP is not made available to the National 
Guard and Reserves. ``TAP managers with DoD and the military services 
explained that the chief problem is lack of time during demobilization, 
which is often completed in 5 days.'' The American Legion recommends 
that TAP be instituted in the following ways:

    <bullet>  Incorporate TAP into the unit's training schedule months 
before activation;
    <bullet>  Have a TAP briefing during a unit's organization day that 
includes spouses;
    <bullet>  Activate a unit for a weekend either before or after a 
deployment;
    <bullet>  Most units spend three to eight weeks at an installation 
site preparing to move into theater--TAP briefings should be available; 
and
    <bullet>  Spend an extra day or two at a demobilization site to 
include TAP.

    The GAO report also states that many service members are not 
interested in the employment segment because they believe they have 
jobs waiting for them once they return home. That might have been true 
with the first rotations into theater; however, that is not the case 
now for many veterans, especially with back to back deployments. A 
number of complaints have surfaced from service members around the 
country that some businesses are reluctant to hire veterans still in 
the military and businesses have allegedly started putting pressure on 
veterans who have deployed once not to deploy a second time. As stated 
earlier, The American Legion recommends that TAP become a mandatory 
program for both pre- and post-deployment.

Transitional Assistance Program for National Guard and Reserves:
                   Aberdeen Proving Grounds, Maryland
    The TAP program located at Aberdeen Proving Grounds, Maryland, has 
been called a unique program and still highly regarded as a model for 
all the Army. It is currently the only program that offers transition 
assistance to Guard and Reserves with an 8-hour presentation of 
services and benefits. Briefings are given covering Finance, Education, 
USERRA, VA compensation and disability claims, Employment Assistance, 
Mental Health Counseling Services, and TRICARE. The program also has a 
number of unique partnerships with many Federal, State and local 
agencies. Some of those partnerships include: the Maryland Division of 
Workforce Development, Perry Point VA Hospital, Department of Labor, 
Walter Reed Army Medical Center and the Ft. Monmouth, N.J., Transition 
Office. The program has a pro-active philosophy. Some examples include:

    <bullet>  Service members needing employment are given immediate 
assistance. In some cases this has led to immediate hires, and those 
service members returned home with a job while avoiding unemployment. 
If the veteran lives outside the State a point of contact is given for 
that individual to ensure there is a veteran representative waiting 
with job service resources.
    <bullet>  The Perry Point VA Hospital offers immediate shelter to 
service members who may be homeless, which lessens the numbers of 
homeless veterans on the nation's streets. VA reports that more than 
175,000 veterans are currently homeless and another 250,000 are 
homeless over a period of time. VA has also reported that the number of 
homeless veterans who have served in Iraq and Afghanistan is 
increasing, especially among women with children. The American Legion 
believes the first line of defense in preventing additional homeless 
cases is to have a strong and pro-active transitional assistance 
program.
    <bullet>  Service members who need assistance with filling out 
compensation and disability claims are offered immediate assistance by 
visiting VA representatives. The program has received positive feedback 
by service members and commanders.

Legion Outreach Programs
                          Heroes to Hometowns
    In an effort to increase transparency and cooperation between the 
DoD and the American people, The American Legion entered into an 
understanding with the Office of the Secretary of Defense's (OSD) 
Office of Military Community and Family Policy (MCFP) under the 
authority of the Deputy Under Secretary of Defense for Military 
Community and Family Policy, Leslye A. Arsht to assist in outreach and 
assistance efforts to transitioning severely injured service members. 
The American Legion agreed to provide outreach support to the military 
community's severely injured as they transitioned home through a 
program known as Heroes to Hometowns. This program embodies The 
American Legion's long standing history of caring for those ``who borne 
the battle'' and their families.
    Heroes to Hometowns is designed to welcome home service members who 
can no longer serve in the military. The American public's strong 
support for its troops is especially evident in their willingness to 
help service members who are severely injured in the war, and their 
ever-supportive families, as they transition from the hospital 
environment and return to civilian life.
    Heroes to Hometowns is a program that focuses on reintegration back 
into the community, with networks established at the national and State 
levels to better identify the extraordinary needs of returning families 
before they return home and to with the local community to coordinate 
government and non-government resources as necessary for as long as 
needed.
    There are three charter members in each State's Heroes to Hometowns 
Executive Committee, each uniquely able to contribute to overall 
support with the ability to tap into their national, State, and local 
support systems to provide essential links to government, corporate, 
and non-profit resources at all levels and to garner the all important 
hometown support.
    State Heroes to Hometowns Committees are the link between the 
Military Treatment Facilities and the community. The charter members 
consist of the State Office of Veterans Affairs, the State Transition 
Assistance Office and the State's veteran community represented by The 
American Legion. Heroes to Hometowns is a collaborative effort and The 
American Legion leads communities in preparing for returning service 
members in areas such as:

    <bullet>  Financial Assistance;
    <bullet>  Finding suitable homes and adapting as needed;
    <bullet>  Home and Vehicle repairs;
    <bullet>  Transportation for veterans to medical appointments;
    <bullet>  Employment and educational assistance;
    <bullet>  Child care support;
    <bullet>  Arrange Welcome home celebrations; and
    <bullet>  Sports and recreation opportunities.

    When transitioning veterans request assistance via a Web-form or 
brochure available through The American Legion, the veterans' contact 
information is shared the State Executive Committee. The veteran must 
agree to share this non-sensitive information such as their name, 
address and telephone number of the caller and the type of assistance 
requested. This information is shared with the three charter members to 
coordinate support.
    The American Legion State offices refer the veteran's request to 
the local post, which voluntarily connects with the veteran to provide 
community resources. The Heroes to Hometowns Program focuses on those 
needs not provided by Federal and State agencies.
    To assist in the coordination of community resources, The American 
Legion supports OSD's Military Homefront's Online Support Network for 
military personnel and community organizations to connect and 
collaborate. This online network is dedicated to citizens and 
organizations that support America's service men and women. Through the 
support network, veterans can easily identify and quickly connect with 
national, State and community support programs. In 2007, the Heroes to 
Hometowns program expanded its vision to include all transitioning 
service members, to include the underserved National Guard and Reserve 
components. Currently, the National Guard and Reserve do not have 
mandated Transition Assistance Programs (TAP) when demobilizing. This 
hard-to-reach population primarily lives in rural America, disconnected 
from the traditional services provided by DoD or the VA. The American 
Legion, with its 2.7 million members and 14,000 posts, reaches into 
these rural communities conveying a consistent message of strong 
support for America's military personnel; the veterans who return home; 
care for the veteran's family; and a patriotic pride in America. With 
the Heroes to Hometowns program, The American Legion reaches out to 
provide support long after the deployment is over.
Assessing Services Rendered
    The American Legion recommends that Congress require Federal 
agencies that deliver TAP/DTAP services to develop a management-
monitoring program to better assess how well services are being 
delivered to transitioning service members. Currently, the 
effectiveness of services provided by TAP agencies is unknown because 
adequate performance goals and benchmarking measures have never been 
instituted. Consequently, there is a lack of any verifiable outcome 
data. Performance measures should be instituted to hold all Federal 
agencies involved in TAP/DTAP accountable for services rendered.

                                Summary

    America asks its young people to serve in the armed forces to guard 
and defend this great nation and its way of life. Their selfless 
service provides millions of Americans with the opportunity to pursue 
their vocational endeavors. The successful transition of that service 
member back into the civilian workforce must be a shared 
responsibility, especially if that service member has suffered service-
connected disabilities. There is much talk about ``seamless 
transition'' between DoD and VA, but it goes beyond that. It should be 
a ``seamless transition'' between all Federal agencies involved in a 
transition assistance program. That means:

    <bullet>  Ensuring service members know their active-duty legal 
rights and that those Federal agencies involved should monitor and 
assist in the compliance with those rights;
    <bullet>  Prompt adjudication of disability claims;
    <bullet>  Prompt adjudication of educational claims;
    <bullet>  Timely access to TRICARE and VA quality health care
    <bullet>  Housing of the homeless;
    <bullet>  Employment assistance;
    <bullet>  Small business assistance; and
    <bullet>  Any other Federal assistance, as needed.

    The American Legion reaffirms its strong support of TAP/DTAP, but 
also encourages DoD to require that all separating, active-duty service 
members, including those from the Reserves and the National Guard, be 
given an opportunity to participate in TAP/DTAP training not more than 
180 days prior to their separation or retirement from the armed forces, 
and follow-up counseling not later than 180 days after separation from 
active duty. The American Legion supports efforts to mandate that all 
service members be given the opportunity to participate in TAP/DTAP.

                                 <F-dash>

                         Prepared Statement of
   Major General Marianne Mathewson-Chapman, USA (Ret.), Ph.D., ARNP,
           National Guard and Reserve Coordinator, Office of
        Outreach to Guard and Reserve Families, Veterans Health
          Administration, U.S. Department of Veterans Affairs

    Good afternoon, Mr. Chairman and members of the Subcommittee. Thank 
you for inviting me to speak about the cooperation between the 
Department of Veterans Affairs (VA), the Department of Defense (DoD), 
the National Guard, and the Reserves. I am pleased to report VA and DoD 
are coordinating their efforts more closely than ever to ensure former 
members of the National Guard and the Reserves are reintegrating into 
society and are being offered all of the benefits and services to which 
they are eligible. I am accompanied today by Dr. Edward Huycke, Chief 
VA/DoD Coordination Officer, VHA, Mr. Charles Flora, Executive 
Assistant for the Readjustment Counseling Service, VHA, Karen 
Malebranche, Executive Director of OEF/OIF, VHA, and Mr. Bradley Mayes, 
Director of the Compensation and Pension Service in the Veterans 
Benefits Administration (VBA).
    From the start of Fiscal Year (FY) 2002 through the first quarter 
of FY 2008, 837,458 veterans of Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF) have separated from active duty and 
become eligible for VA health care. Of those, slightly more than half, 
422,870 were members of the Reserve or the National Guard. Thirty-nine 
percent of all separated OEF/OIF veterans have obtained VA health care, 
while 38 percent of returning veterans from the Reserve or National 
Guard have chosen to receive care from VA.
    VA has a longstanding commitment to serving this important 
component of our Armed Forces. We are dedicated to providing the 
highest quality care and services to all who have worn the uniform in 
any branch of service. We also recognize the importance of timely 
contact, and that not all separating service members, or members of the 
National Guard and Reserve, will be interested in immediately enrolling 
in VA for health care or benefits. Many of them are focused on 
returning to their family and friends, their community, and their 
careers, and justifiably so. As a result, VA has developed a multi-
faceted strategy to provide both episodic and continuous outreach.
    Specifically, VA is focusing on three phases of intervention: 
first, at 12 Army Reserve Component demobilization sites across the 
country; second, at post-deployment health reassessments (PDHRAs) 
conducted at their military base; and finally, on a continuing basis 
after separation from military service. VA also works closely with 
families, communities, counties and State governments to coordinate 
efforts and ensure we cast as broad a net as possible to inform our 
Nation's veterans of the benefits and health care services they have 
earned.

DEMOBILIZATION
    DoD provides VA with dates, numbers of participants and locations 
for Reserve Component units in demobilization and reintegration 
programs. The two Departments are standing up a comprehensive program 
for VA participation in mandatory demobilization out-processing 
procedures at Army sites. This pilot program began May 28, 2008, and 
through the first half of June has already established contact with 
more than 1,000 separating members of the National Guard and Army 
Reserves at Ft. Bragg, North Carolina and Camp Shelby, Mississippi. VA 
has enrolled approximately 80 percent of these veterans.
    At these events, Veterans Health Administration (VHA) staff 
representatives from the local VA medical center are given 15 to 30 
minutes during mandatory demobilization briefings for a presentation. 
During this time, veterans receive information about recent changes in 
enrollment and eligibility, including the expansion of the period of 
enrollment from two to five years for OEF/OIF veterans following their 
separation from active duty. They are also educated about the period of 
eligibility for dental benefits, which was recently extended by the 
2008 National Defense Authorization Act from 90 days to 180 days 
following separation from service.
    Veterans are also shown and provided with an Application for 
Medical Benefits (the 1010EZ, which enrolls them for VA health care). 
Moreover, they are shown how to complete the form. VHA staff also 
discuss how to make an appointment for an initial examination for 
service-related conditions and answer questions about the process. 
These completed forms are collected at the end of each session. VA 
staff at the supporting facility match the 1010EZ with a copy of the 
veteran's DD214, their discharge papers and separation documents, scan 
them, and e-mail or mail them to the VA medical center where the 
veteran chooses to receive care. The receiving facility staff will 
process the paperwork and notify the veteran. Guard and Reserve 
veterans receive a special form and a toll-free number they can dial if 
they need to seek medical care before they have received their official 
enrollment letter in the mail.
    Our representatives also make a straightforward presentation 
regarding the advantages of enrolling in care immediately: this is free 
health care for service-connected conditions, and they retain their 
choice of providers as their TRICARE benefits will continue for six 
months after separation. Enrollment serves as a measure of insurance in 
case at some point in the future, a veteran begins displaying symptoms 
of a service-connected condition. Essentially, our message reinforces a 
positive message about enrollment for VA health care, both now and in 
the future.
    The Vet Center program is the VHA arm for community outreach to 
returning combat veterans. The outreach to provide veterans and family 
members with educational information about services is one of the 
legislatively mandated missions of the Vet Center program. In response 
to the growing numbers of veterans returning from combat in OEF/OIF, 
the Vet Centers initiated an aggressive outreach campaign to welcome 
home and educate returning service members at military demobilization 
and National Guard and Reserve sites. Through its community outreach 
and brokering efforts, the Vet Center program also provides many 
veterans the means of access to other VHA and Veterans Benefits 
Administration (VBA) programs. To augment this effort, the Vet Center 
program recruited and hired 100 OEF/OIF veterans to provide the bulk of 
this outreach to their fellow veterans. To improve the quality of its 
outreach services, in June 2005, the Vet Centers began documenting 
every OEF/OIF veteran provided with outreach services. The program's 
focus on aggressive outreach activities has resulted in the provision 
of timely Vet Center services to significant numbers of OEF/OIF 
veterans and family members. Since the beginnings of hostilities in 
Afghanistan and Iraq, the Vet Centers have seen over 288,594 OEF/OIF 
veterans, of whom over 216,172 were outreach contacts seen primarily at 
military demobilization and National Guard and Reserve sites and 72,422 
were provided readjustment counseling in the Vet Center. The Vet Center 
Program has also provided outreach services to the United States Marine 
Corps IRR reservists across the Nation.
    The approach builds on a prior outreach effort conducted during the 
first Gulf War, which received the commendation of the President's 
Advisory Committee on Gulf War Veterans' Illnesses. In its final report 
of March 1997, the Committee cited the Vet Centers for providing 
exemplary outreach to contact and inform this veteran cohort about VA 
services. On October of 2004, the U.S. Medicine Institute of Health 
Studies and Association of Military Surgeons of the United States 
reported that ``VHA's Vet Centers have proven a ``best practice'' model 
in fostering peer-to-peer relationships for those with combat stress 
disorders.''

POST-DEPLOYMENT HEALTH REASSESSMENTS (PDHRA's)
    Following demobilization, DoD regularly holds post-deployment 
health reassessments (PDHRA's) for returning combat Guard and 
Reservists between three and six months after separation from active 
duty. The PDHRA is a health protection process designed to enhance the 
deployment-related continuum of care. PDHRA's provide education, 
screening, and a global health assessment to help facilitate care for 
deployment-related physical and mental health concerns. Completion of 
the PDHRA is mandatory for all members of the National Guard or Reserve 
who complete the post-deployment health assessment.
    DoD provides VA a list of locations and times where these will take 
place--often at the Reserve unit's base prior to deployment. VA 
outreach staff from local medical centers and Vet Centers participate 
at these events. DoD clinicians screen veterans and VA staff are 
available to prepare referrals for any veteran interested in seeking 
care from a VA facility. Vet Center staff are also present to assist 
veterans with enrollment in VA for health care or counseling at a local 
Vet Center.
    PDHRA's are typically held in person with mandatory attendance for 
units of 30 or more service members, while smaller units conduct their 
PDHRA's by phone on a person-by-person basis. Almost 73 percent of all 
Reserve Component PDHRA referrals were to VA--either a Vet Center or a 
VA medical facility. VA's PDHRA mission is threefold: enroll eligible 
service members, including members of the Guard or the Reserves, into 
VA health care; provide information on VA benefits and services, and; 
provide assistance in scheduling follow-up appointments. VA medical 
center and Vet Center representatives provide post-event support for 
all onsite and Call Center PDHRA events.
    VA medical centers and Vet Centers accept direct PDHRA referrals 
from DoD's 24/7 Contract Call Center. Between November 2005 and May 
2008, VA staff supported over 1,050 onsite and 380 Call Center PDHRA 
events. During that same period, DoD conducted 193,559 Reserve 
Component PDHRA screenings, resulting in more than 41,100 referrals to 
VA medical centers and 19,200 to Vet Centers.
    Another essential piece of VA's outreach during PDHRA's and other 
events at or just after separation from active duty are the 100 Global 
War on Terror (GWOT) counselors employed by VA's Readjustment 
Counseling Service. Vet Center GWOT Veteran Outreach Specialists 
conduct a focused campaign to inform their fellow GWOT veterans about 
VA benefits and services. These GWOT Counselors attend demobilization, 
PDHRA and other activities, including ``welcome home'' events. These 
Counselors are performing a vital service, and their personal 
connection and dedication to the task at hand has helped countless 
veterans and their families throughout the reintegration process.

POST-SEPARATION
    While VA's participation at demobilization sites and in PDHRA 
events represents critical elements of our outreach strategy, we are 
well aware that not all veterans will enroll during this time. As a 
result, through a number of outreach initiatives, VA continues its 
efforts once veterans, especially members of the National Guard and 
Reserves, have returned to their community. These measures range from 
nationwide to neighborhoods and leverage VA's relationships with State 
and local partners, including a wide variety of organizations.
    In May 2005, VA and the National Guard entered into a partnership 
and signed a Memorandum of Understanding to enhance access to VA health 
care for members of the National Guard. In 2006, the National Guard 
hired 54 Transition Assistance Advocates (TAA's), one for each State 
and territory with a National Guard presence (Puerto Rico, Guam, the 
U.S. Virgin Islands, and the District of Columbia). The National Guard 
continues to fund this robust program. They are presently expanding it 
with a goal of 2 TAA's for each State with a large number of deployed 
troops. In early 2006, the National Guard hired and funded the first 54 
TAA's, while VA provided specialized training for them at the VBA 
Academy in Baltimore about VA benefits and health care services. In 
2008, an additional six TAA's were hired to provide further support in 
States with large pools of National Guard members: Texas, Pennsylvania, 
Georgia, Florida, California, and Minnesota. VA continues working 
closely with TAA's while they are in the field and serving OEF/OIF 
veterans, through regularly scheduled conference calls, newsletters, 
and annual training conferences that identify and disseminate best 
practices in each State. TAA's serve two critical missions: first, they 
perform local problem-solving for any specific issues facing veterans; 
second, TAA's bring together key leaders and organizations, such as 
State Directors of Veterans Affairs, Adjutants General, and VA 
leadership at the Network and facility level. The VHA OEF/OIF Office of 
Outreach also has strong ties with the Adjutants General of the 
National Guard, TAA's, and with State Directors of VA, all of whom can 
and do keep VA informed of any challenges in accessing VA health care 
or other issues.
    TAA's have been the critical link in facilitating access to VA by 
National Guard and Reserve members by providing VA with critical 
information on numbers of returning troops, locations, and homecoming 
and reintegration events. TAA's also facilitate enrollment into VHA 
care for returning troops. Many Adjutants General have mandated 
National Guard members to enroll in VA health care in their State 
during the post-deployment period.
    Moreover, VA has signed a Memorandum of Understanding with 47 
States that define the roles and responsibilities of VA and the State 
Departments of Veterans Affairs. A few States prefer to operate under 
the agreement reached between the National Guard and VA in 2005. These 
State partnerships are the foundation for the development of State 
coalitions with participation by VA, State Adjutants General, State 
Directors of VA, and community and State organizations to address the 
coming home needs of the Guard and the Reserve members.
    VA works with State governments to further our mutual goal of 
enhanced benefits and care for veterans in multiple ways. Some examples 
include:

    <bullet>  In Connecticut, the State has signed a Memorandum of 
Understanding with VA allowing severely injured veterans to volunteer 
to have their medical information shared with the State, and VA has an 
active campaign to encourage wounded veterans in the State to contact 
VA for enrollment and benefits.
    <bullet>  In Delaware, the State signed a Memorandum of 
Understanding in September 2007 with the Delaware National Guard, the 
Delaware Department of Labor, VA, and other support agencies to 
establish clarity of communication and synchronization of efforts 
between each agency to provide veterans with transition assistance and 
guidance.
    <bullet>  In Florida, a pilot program was established to allow for 
ease of transfer of information from VA to the State government for 
wounded service members who volunteer to have their information shared.
    <bullet>  In Ohio, the National Guard and the regional VA office 
are negotiating a Memorandum of Understanding to provide comprehensive 
informational sessions for members of the Guard and their families 
during different stages of deployment.
    <bullet>  In South Carolina, the State has partnered with VA to 
offer job and health fairs for returning service members.
    <bullet>  In South Dakota, the State has established a seven step 
Reunion and Reintegration plan, a portion of which includes providing 
information on Vet Centers and PDHRAs.
    <bullet>  In Minnesota, during the ``Beyond the Yellow Ribbon 
Reintegration Program'', VA participated in briefings to returning 
troops and families, enrolled members of the National Guard in VA 
health care, and supported family members in the Family Academy 
classes, which provided information about VA benefits and health care 
services for which the spouse or family of a veteran may be eligible.

    For wounded warriors returning home, 43 States currently 
participate in the State Benefits Seamless Transition Program. To date, 
350 severely injured veterans have signed the consent form authorizing 
VA to notify their local State Department of Veterans Affairs of their 
contact information when they return to their home State. The 
initiative involves VA health care liaison staff located at the 
following Department of Defense medical facilities:

    <bullet>  Walter Reed Army Medical Center, Washington, DC
    <bullet>  National Naval Medical Center, Bethesda, MD
    <bullet>  Brooke Army Medical Center, San Antonio, TX
    <bullet>  Darnall Army Medical Center, Ft. Hood, TX
    <bullet>  Madigan Army Medical Center, Puget Sound, WA
    <bullet>  Eisenhower Army Medical Center, Augusta, GA
    <bullet>  Evans Army Community Hospital, Ft. Carson, CO
    <bullet>  Naval Medical Center, San Diego, CA
    <bullet>  Womack Army Medical Center, Ft. Bragg, NC
    <bullet>  Naval Hospital, Camp Pendleton, CA
    <bullet>  Naval Hospital, Camp Lejeune, NC

    Under the program, wounded veterans returning to their home States 
can elect to be contacted by their local State Department of Veterans 
Affairs about State benefits available to them and their families. VHA 
Liaisons for Health Care identify injured military members who will be 
transferred to VA facilities, inform them about the program, and obtain 
a signed consent form from veterans electing to participate. These 
forms are faxed directly to an identified point of contact in the 
State's Department of Veterans Affairs. The State offices, in turn, 
contact the veterans to inform them of available State benefits.
    In order to participate in the program, State Departments of 
Veterans Affairs must provide a point of contact and dedicate a fax 
machine in a private, locked office to receive the release of 
information forms. VA asked States to participate in the program in 
February 2007 when it was expanded beyond the Florida pilot program.
    VA also conducts direct outreach by telephone through several 
initiatives, including the Secretary's recently announced call center 
campaign to contact every OEF/OIF veteran and service member, including 
members of the National Guard and Reserve, who have separated from 
service but who have not yet enrolled in VA health care. On May 2, 
2008, VA began contacting over 500,000 combat OEF/OIF veterans to 
ensure they know about VA medical services and other benefits. The 
Department will reach out and touch all veterans of the war to let them 
know VA is here for them. The first of those calls went to an estimated 
17,000 veterans who were sick or injured while serving in Iraq or 
Afghanistan. If any of these 17,000 veterans do not already have a care 
manager to work with them, VA will offer to appoint one for them. The 
second phase of call initiative is to those discharged from the 
military but not yet receiving VA health care. Local VA facilities and 
network representatives are provided referrals in their area to provide 
follow-up contact should the veteran want additional information or 
have unmet needs.
    The Veterans Assistance at Discharge System process mails a 
``Welcome Home Package,'' including a letter from the Secretary, ``A 
Summary of VA Benefits'' (VA Pamphlet 21-00-1), and ``Veterans Benefits 
Timetable'' (VA Form 21-0501), to veterans recently separated or 
retired from active duty (including Guard/Reserve members). We re-send 
this information six months later to these veterans.
    The Secretary of Veterans Affairs sends a letter to newly separated 
OEF/OIF veterans. The letters thank veterans for their service, welcome 
them home, and provide basic information about health care and other 
benefits provided by VA. Through the first quarter of FY 2008, VA 
mailed more than 766,000 initial letters and 150,000 follow-up letters 
to veterans.
    Families are a vital force in guaranteeing veterans have access to 
the care and services they need; they are often the first to notice a 
change in behavior or any symptoms. VA works with National Guard family 
programs and provides literature on readjustment counseling and health 
care services to family program directors at annual training 
conferences. Many VA facilities attend ``welcome home'' events and Vet 
Centers identify other resources in the community where families and 
veterans can establish contact to meet their specific needs. VA is 
continuing its work with the Army's Warrior Transition Units at active 
duty Army bases and the nine community based health care organizations 
to ensure the leadership of these units is linked to case managers at 
VA medical centers. VA also supports the Family Assistance Centers at 
Army bases with VBA counselors and vocational rehabilitation 
specialists who can support and extend VA's outreach efforts to help 
service members with enrollment for health care, applications for 
disability, or other VA benefits prior to separation from active duty.

VETERANS BENEFITS ADMINISTRATION
    VA currently conducts a comprehensive outreach program, designed to 
provide information to all military personnel separating from active 
duty. Separating service members are advised about all of the services 
and benefits available from VA. Since the beginning of fiscal year 2003 
through April of 2008, VA has conducted more than 8,300 briefings and 
provided information to approximately 510,000 National Guard and 
Reserve attendees.
BENEFITS INFORMATION AT TIME OF INDUCTION INTO SERVICE
    VA initiates outreach to National Guard and Reserve members at the 
beginning of their military career. Since November 2004, everyone 
inducted into the five military branches receives a VA benefits 
pamphlet at the military entrance processing station. This pamphlet 
provides inductees with basic information on VA benefits and services 
at the start of their military active service. We want to be sure they 
know that VA will be there for them in the future.

TRANSITION ASSISTANCE PROGRAM (TAP)
    One of the formal pre-discharge outreach programs that VA 
participates in is the Transition Assistance Program (TAP), which is a 
program operated in conjunction with the Department of Labor. TAP is 
conducted nationwide and in Europe to prepare retiring or separating 
military personnel for return to civilian life, and VA provides 
benefits briefings as a part of the program. At these briefings, 
service members are informed of the array of VA benefits and services 
available, instructed on how to complete VA application forms, and 
advised on what evidence is needed to support their claims. Following 
the general instruction segment, personal interviews are conducted with 
those service members who would like assistance in preparing and 
submitting their applications for compensation and/or vocational 
rehabilitation and employment benefits.

DISABLED TRANSITION ASSISTANCE PROGRAM (DTAP)
    Also as a part of TAP, service members leaving the military with a 
service-connected disability are offered the Disabled Transition 
Assistance Program (DTAP). DTAP is an integral component of transition 
assistance for service members who may be released because of 
disability. Through VA's DTAP briefings, VA advises transitioning 
service members about the benefits available through the Vocational 
Rehabilitation and Employment (VR&E) program. The goal of DTAP is to 
encourage and assist potentially eligible service members in making 
informed decisions about the VR&E program and to expedite delivery of 
these services to eligible service members and veterans.

OTHER OUTREACH EFFORTS
    Along with face-to-face outreach efforts, VA is seeking to ensure 
that a ``Welcome Home Package'' is sent to all returning National Guard 
and Reserve members. DoD provides the names and addresses of these 
returnees based on active-duty separation records. The Veterans 
Assistance at Discharge System (VADS) then generates a ``Welcome Home 
Package'' for recently separated veterans, including Reserve and 
National Guard members. The mailing itself contains a letter from VA 
and a summary and timetable of VA benefits. In addition to the VADS 
mailings, a separate personal letter from the Secretary, along with 
benefits information, is sent to each returning OEF/OIF veteran. VADS 
also sends separate packages that explain education, loan guaranty, and 
insurance benefits. A six-month follow-up letter with the same general 
benefits information is also sent to each returning member. VA is 
currently working with DoD to update the electronic transfer of this 
information.

PARTNERSHIPS
    In peacetime, outreach to Reserve and National Guard members is 
generally accomplished on an ``on call'' or ``as requested'' basis. 
With the onset of Operations Enduring Freedom and Iraqi Freedom (OEF/
OIF) and the activation and deployment of large numbers of Reserve and 
National Guard members, VA's outreach to this group has greatly 
expanded. VA has made arrangements with Reserve and Guard officials to 
schedule briefings for members who are being mobilized and demobilized.
    VA Regional Offices assist and support seriously injured OEF/OlF 
service members and veterans by case managing their claims, to include 
outreach, coordinating services, and expedited claims processing 
procedures. In collaboration with DoD, VA published and distributed one 
million copies of a new brochure called, ``A Summary of VA Benefits for 
National Guard and Reservists Personnel.'' The new brochure summarizes 
health care and other benefits available to this special population of 
combat veterans upon their return to civilian life.
    VA Regional Offices assist and support seriously injured OEF/OlF 
service members and veterans by conducting case management activities, 
including outreach, coordinating services, and streamlining claims 
processing procedures. In collaboration with DoD, VA published and 
distributed one million copies of a new brochure called, ``A Summary of 
VA Benefits for National Guard and Reservists Personnel.'' The new 
brochure summarizes health care and other benefits available to this 
special population of combat veterans upon their return to civilian 
life.

CONCLUSION
    VA's mission is to care for those who have borne the battle, and it 
is a mission we take seriously. Every day our clinicians and staff are 
developing new methods for providing information to those in need and 
for improving the quality of care and benefits we offer. We thank the 
Subcommittee for their interest in this matter and we thank DoD for 
their cooperative efforts in supporting our veterans.

[GRAPHIC] [TIFF OMITTED] T3996A.001


[GRAPHIC] [TIFF OMITTED] T3996A.002


                                 <F-dash>
  Statement of Donald L. Nelson, Deputy Assistant Secretary of Defense
   for Reserve Affairs (Manpower and Personnel), U.S. Department of 
                                Defense

    Chairman Mitchell, Ranking Member Brown-Waite, and members of the 
subcommittee: thank you for your invitation to talk about DoD and VA 
cooperation on the reintegration of our National Guard and Reserve 
veterans. As you know, Section 582 of the National Defense 
Authorization Act for 2008 required the Department to establish a 
national combat veteran reintegration program to provide National Guard 
and Reserve members and their families with sufficient information, 
services, referral, and proactive outreach opportunities throughout the 
entire deployment cycle. I'm pleased to tell you that the Joint 
Deployment Support and Reintegration Program Office opened on March 17, 
2008.
    The office has liaisons from the National Guard, the Army Reserve, 
the Navy Reserve, and the Air Force Reserve, serving as subject matter 
experts to assist us in implementing the program. Veterans Affairs' 
Deputy Secretary Mansfield has committed to continue and to strengthen 
the partnership with the Department by placing a subject matter expert 
from the VA on our staff as well. We are working closely with the VA 
VHA/DoD Outreach Office that focuses its efforts on outreach to 
National Guard and Reserve members and their families. We also work 
with the National Guard Transition Assistance Advisors, the National 
Association of State Directors of Veterans Affairs, the Departments' 
Joint Family Resource Center and their Joint Family Support Assistance 
Program, as well as each of the National Guard and Reserve family 
program offices to ensure that the Department is doing everything 
possible to make the best use of available resources to meet the 
deployment support requirements of our returning military veterans, 
especially those that are geographically separated from military 
installations and dispersed in all 54 States and territories as well as 
Europe.
    We are in the final staffing of the Directive-Type Memorandum that 
will implement the Department's deployment support and reintegration 
program. That directive requires the Services and their Reserve 
components to provide the 30-, 60-, and 90-day reintegration programs 
for their returning members beginning in the 4th quarter of this fiscal 
year. It also requires them to implement a robust deployment support 
and reintegration program beginning in the 1st quarter of fiscal year 
2009. Our office will monitor and manage these programs at the 
strategic level and ensure that locally available resources are used to 
the maximum extent possible while also making sure that the 
availability of these programs is shared between the components to 
allow members and families to access them at the location closest to 
where they reside.
    The Department recognizes that support of families and employers is 
vital to success. The Department and Reserve Affairs have devoted 
substantial resources and efforts toward expanding the support for our 
families. The challenge is particularly acute for widely-dispersed 
reserve families, most of whom do not live close to major military 
installations. Thus, we have developed and promoted Web sites and 
electronic support for families, established and promoted the use of 
the 700 military family service centers for all Active, Guard and 
Reserve members and families to provide personal contact, and hosted 
and participated in numerous family support conferences and forums. 
Reintegration training and efforts to support members and families 
following mobilization, particularly for service in a combat zone, are 
vital. The reintegration program in Minnesota has proven to be an 
exceptional success and forms the basis for the Joint Deployment 
Support and Reintegration Program with its Yellow Ribbon Reintegration 
Center of Excellence for all Guard and Reserve members. The Department 
is fully committed to implementing this program, which will provide 
Guard and Reserve members, and their families, the support that will 
help them during the entire deployment cycle--from preparation for 
active service to successful reintegration upon return to their 
community and beyond. We will continue to work with Veterans Affairs, 
State Governors and their Adjutants General, the State family program 
directors as well as with the Military Services and their components to 
ensure an integrated support program is delivered to all Guard and 
Reserve members and their families.
    The support for employers over the past six years mirrors the 
increased support for families. We doubled the budget of the National 
Committee for Employer Support of the Guard and Reserve (ESGR). We 
developed an employer database which identifies the employers of Guard/
Reserve members, expanded the ESGR State committees and their support 
(over 4,500 volunteers are now in these committees) and are reaching 
out to thousands more employers each year. The Freedom Awards program 
and national ceremony to recognize employers selected for this award 
has become a capstone event, in which the President has given 45 
minutes of his time in the Oval Office in each of the past two years to 
recognize the annual Freedom Award winners (15 recipients per year are 
selected from more than 2000 nominees from small business, large 
business, and the public sector). Never in the history of the Guard and 
Reserve have families and employers been supported to this degree and 
they appreciate it, as this effort is critical to sustaining an 
Operational Reserve.
    This Committee has always been very supportive of our National 
Guard and Reserve Forces. On behalf of those men and women, I want to 
publicly thank you for all your help in providing for them as they have 
stepped up to answer the call to duty. The Secretary and I are deeply 
grateful, our military personnel and their families certainly 
appreciate it, and we know we can count on your continued support. 
Thank you very much for this opportunity to testify on behalf of our 
Guard and Reserve.

                                 <F-dash>
               Statement of Reserve Officers Association

    Mr. Chairman and distinguished members of the Veterans' Affairs 
Committee, on behalf of its 655,000 members, the Reserve Officers 
Association expresses its appreciation for the opportunity to present 
testimony on issues that affect the 1.1 million men and women now 
serving in America's Reserve Components.
    As contingency operations bring about ongoing mobilizations and 
deployments, many of these outstanding citizen Soldiers, Sailors, 
Airmen, Marines, and Coast Guardsmen have put their civilian careers on 
hold while they serve their country in harm's way. Nearly 700,000 have 
already served in support of operations. As we have learned, they share 
the same risks and their counterparts in the Active Components. The 
United States is creating a new generation of combat veterans that come 
from its Reserve Components (RC). It is important, therefore, that they 
be afforded benefits consistent with their selfless service to their 
country and in parity with their active-duty compatriots.
    The individuals serving in the States are no less patriotic, and 
with the planned rotations by the Department of Defense, they will 
likely have a chance to serve overseas. Yet, there is a group of 
Reserve Component men and women with non-prior service: Reserve 
personnel who qualify for veteran benefits even before mobilization. 
These individuals may even be serving in ``harms way,'' but under other 
than mobilization orders. Men and women of the Reserve Components on 
Active Duty for Special Work (ADSW) orders are performing numerous 
missions.

GI BILL BENEFITS
    Public Law 106-419, Veterans Benefits and Health Care Improvement 
Act of 2000, was enacted on November 1, 2000. The law repealed the 
original provision that states MGIB eligibility is established by the 
initial obligated period of active duty. Soldiers who do not meet the 
time in service requirement during the first term of service, as stated 
above, may become eligible on a subsequent period of active duty. When 
service members return to active duty, they are eligible to re-
establish MGIB eligibility by completing 36 months of this subsequent 
period of service obligation with a fully honorable character of 
service discharge. If the soldiers separate early, the above rules 
still apply.
    Under partial mobilization, RC service members receive orders 
placing them on active duty for up to two years. The current assumption 
is that Reserve Component members are not eligible for active duty MGIB 
if they cannot serve for 36 months.

    <bullet>  When recalled, Guardsmen or Reservists should be eligible 
to participate in the active duty GI Bill.
    <bullet>  Public Law 106-419 should be as applicable to RC members 
as those on active duty. In reality, where DoD plans to do multiple 
call-ups as often as once every five years, RC service members should 
be entitled to re-establish eligibility and accrue 24 months of 
service.
    <bullet>  RC members should be permitted to enroll in the GI Bill 
by buying-in with 1,200 of their basic pay in the first year of 
mobilization, if required. If the enrolled individual is sent home at 
the convenience of the government before one year, MGIB withholding 
will continue on subsequent recalls.
    <bullet>  At the end of the first tour of mobilization, 
disenrollment should be offered as a one-time, irrevocable decision.
    <bullet>  When RC service members accrue two years of Active 
Service, those soldiers should be entitled to the exact same benefit as 
their Active Component counterparts.
    <bullet>  Disabled Guardsmen and Reservists should be eligible for 
the new GI bill or MGIB.
    <bullet>  Reservists and Guardsmen with service-connected 
disabilities should be afforded the same re-education opportunities as 
those on active duty, as the enemy's bullet does not discriminate.
Additional MGIB-SR Enhancements
    The MGIB-SR rate has not kept pace with the increasing roles of the 
Guard and Reserve.

    <bullet>  The MGIB-SR benefit needs to increase to 50 percent of 
the MGIB.
    <bullet>  The eligibility period needs to begin at the point 
service members elect to use the program for the first time.
    <bullet>  The eligibility period should extend for 14 years 
following their release from military service.

GI Bill for the 21st Century

    <bullet>  ROA urges the Congress to authorize and appropriate 
adequate funding for a new GI Bill beyond fiscal year 2009.
    <bullet>  The Association further supports transferability to 
serving members who don't use the benefit to family members.
    <bullet>  GI bill payments should be able to be applied to repay 
student loans.

Education Reform
    The Department of Education has been working hard to contact 
education institutes about the administration of the Federal student 
financial aid program authorized under Title IV of the Higher Education 
Act about recalled students.

    <bullet>  If an RC student is recalled and unable to continue 
school, a student loan should remain ``in-status'' for the period for 
the duration of the mobilization even if it exceeds three years.
    <bullet>  A ``total of three years'' should not be cumulative; the 
clock should start over with subsequent recalls.

    Currently, following notification that borrowers who are in default 
of a loan have been called to active duty, lenders cease all collection 
activities for the expected period of the borrower's military service. 
Collection activities can resume no earlier than 30 days after the end 
of the borrower's military service.

    <bullet>  Thirty days is an insufficient time for individuals 
returning from mobilization to reorganize their lives. Like the example 
set with TRICARE medical coverage, this should be extended to at least 
90 days.

UNIFORMED SERVICES EMPLOYMENT AND REEMPLOYMENT RIGHTS ACT REFORM
    The Uniformed Services Employment and Reemployment Rights Act 
(USERRA) significantly strengthens and expands the employment and 
reemployment rights of all uniformed service members. USERRA is 
essentially a good law, but the challenge is enforcing it when the 
involved parties disagree. When Guard and Reserve members return to 
civilian employment following Federal service, actions need to follow 
through to enforce the law. A growing population of Reserve Component 
members feels that the Federal Government isn't doing enough.
    Currently, the agencies tasked to enforce USERRA are the 
Departments of Labor and Justice. DOL's Veterans' Employment and 
Training Service (VETS) handles USERRA complaints and other veterans' 
issues. DOL-VETS provides assistance to all persons having complaints 
under USERRA. If resolution is unsuccessful following an investigation, 
the privately employed Reservist may have his or her claim referred to 
the Department of Justice for consideration for representation in the 
appropriate District Court, at no cost to the claimant.
    Unfortunately, actual elapsed times of cases often take one to two 
years to investigate and process. Within DOL, cases are still processed 
on paper; this slows information transfer, and creates the risk of 
duplication. In the vast majority of cases, the outcome is dismissal of 
the claim. Since USERRA's passage in 1994, most USERRA enforcements 
were by Reservists who sought private litigation.
    The Reserve Officers Association recommends the following:

    <bullet>  The National Committee for Employer Support of the Guard 
and Reserve (ESGR) should be better resourced to expand its outreach 
programs as it is better to prevent a problem by educating employers or 
resolve a problem at the lowest level.
    <bullet>  Reforms are needed in the USERRA Complaint Process.
    <bullet>  The Department of Labor should follow the success of the 
Office of Special Council with dedicated investigators and lawyers 
assigned to DOL-VETS who specifically focus on USERRA cases.
    <bullet>  The Office of Special Council should handle all of the 
Federal employee USERRA cases.
    <bullet>  USERRA case files should be electronically maintained and 
transmitted, allowing access to ESGR, DOL-VETS, OSC, and DOJ and the 
service member.
    <bullet>  Congress should mandate better reporting by all Federal 
agencies by providing details on:

        <bullet>  how many cases.
        <bullet>  how they are resolved.
        <bullet>  how long the actual elapsed time takes.
Accomplishment of objectives should be measured by results rather than 
        outputs.
    Unfortunately, the Federal Government can not handle the increasing 
numbers of cases by itself, there is a need to create incentives for 
private lawyers to represent Guard and Reserve members who face 
employment and reemployment problems. In addition to reemployment:

    <bullet>  A court should be allowed to require the employer to 
compensate the person for any loss of wages or benefits suffered by 
reason of such employer's failure to comply with the provisions of this 
chapter.
    <bullet>  Amend 38 U.S.C. 4323 and 4324 to authorize punitive 
damages for willful and egregious USERRA violations.
    <bullet>  Amend 38 U.S.C. 4323(d)(1)(C)_the ``liquidated damages'' 
provision to require employers who have violated USERRA to remunerate 
to the service member an amount of $20,000 or the amount equal to the 
actual damages, whichever is greater. Provide a provision in section 
4324 allowing for liquidated damages when the employer is a Federal 
executive agency and the violation was willful, such as found in 
section 4323 as it applies to states, political subdivisions of States, 
and private employers.
    <bullet>  Amend Title 38 U.S.C. 4323(e) to mandate (rather than 
simply permit) injunctive relief to prevent or correct a USERRA 
violation.
    Court reforms will not be enough. Private lawyers must still be 
educated as to why USERRA cases are important to represent. ROA hopes 
to create a Law Center that would be:

    <bullet>  a hub for sharing information on USERRA and SCRA.
    <bullet>  an education source on rights and responsibilities under 
USERRA for serving members and provided continuing legal education to 
private council.
Servicemembers Law Center
    The Reserve Officers Association is exploring the establishment of 
a Service-members Law Center, advising Active and Reserve members who 
have been subject to legal problems that occur during deployment. This 
new center would be located in the renovated Minute Man Memorial 
Building on Capitol Hill. A position paper is attached to this 
testimony
    The law center would provide counseling to demobilized Reserve and 
separated Active component members, and could provide a referral 
service for those needing legal assistance. This law center would also 
educate private lawyers about USERRA and the Servicemember Civil Relief 
Act and promote representation of RC members by private lawyers.
    To help facilitate this process, the ROA will set-aside office 
space, hire one lawyer, and one administrative law clerk.
Goals of Law Center
    Recruit: Encourage new members to join the Guard and Reserve by 
providing a non-affiliation service to educate prior service members 
about Uniformed Service Employment and Reemployment Rights Act (USERRA) 
and Servicemember Civil Relief Act (SCRA) protections.
    Retain: Work with Active and Reserve Component members to counsel 
Uniformed Services Former Spouse Protection Act (USFSPA), USERRA, and 
SCRA protections for deployed or recently deployed members facing legal 
problems.
Law Center Services
    Counseling: Review cases, and advise individuals and their lawyers 
as to legitimacy of actions taken against deployed active and reserve 
component members.
    Referral: Provide names of attorneys within a region that have 
successfully taken up USFSPA, USERRA and SCRA issues.
    Promote: Publish articles encouraging law firms and lawyers to 
represent service members in USFSPA, USERRA and SCRA cases.
    Advise: File Amicus Curiae, ``friend of the court'' briefs on 
servicemember protection cases.
    Educate: Quarterly seminars to educate attorneys a better 
understanding of USFSPA, USERRA and SCRA.

    <bullet>  ROA hopes that the Committee will support the 
Servicemembers Law Center project.

    While the above reforms will positively affect USERRA enforcement, 
many other things need to be done to improve USERRA:

    <bullet>  Exempt employees from penalties when their insurance 
lapses if their motor carrier license expires while mobilized (i.e., 
the Federal Motor Carrier Safety Administration).
    <bullet>  Exempt servicemembers from the age restrictions on 
Federal law enforcement retirement applications when deployment causes 
the servicemember to miss completion of the application to buy back 
retirement eligibility.
    <bullet>  Amend Title 49 U.S.C. 44935 to apply USERRA to 
servicemembers employed by the Transportation Security Administration 
(TSA) as screeners.
    <bullet>  Amend 38 U.S.C. 4302(b) to make clear that USERRA 
overrides an agreement to submit future USERRA disputes to binding 
arbitration.
    <bullet>  Amend 38 U.S.C. 4303 (definition of ``employer'') to 
clarify that a successor in interest (a new employer often resulting 
from a merger, transfer of assets or takeover of a function between 
companies) inherits the predecessor's USERRA obligations and that a 
merger or transfer of assets is not necessary to support a finding of 
successor liability.
    <bullet>  Devise a method to tie the escalator principle to merit 
pay systems.

    ROA also suggests the following improvements to SCRA.

    <bullet>  Include National Oceanic Atmospheric Administration 
(NOAA) commissioned officers corps under SCRA coverage.
    <bullet>  Amend the SCRA to give the mobilized RC member the right 
to terminate a contract for telephone service, including cell phone 
service.
    <bullet>  Amend the SCRA to clarify that the Act applies to the 
debts of limited liability companies and Subchapter S corporations when 
the company/corporation is wholly owned by the servicemember or the 
servicemember and a spouse and the servicemember is personally liable 
on the debt, either as a co-maker or as a guarantor.
    <bullet>  Amend the SCRA to add a provision specifically granting a 
servicemember or the dependent of a servicemember a right of action to 
sue violators to enforce the servicemember's rights under the SCRA and 
to recover any damages that may have been incurred.
    <bullet>  Amend the SCRA to add a provision authorizing a court to 
award exemplary or punitive damages and attorneys' fees to 
servicemembers whose rights are violated intentionally or willfully 
under the SCRA by creditors.
    <bullet>  Amend section 201 of the SCRA (50 U.S.C. App. Sec. 521(b) 
(2) to provide that the reasonable fees of the attorney appointed by 
the court to represent the servicemember shall be taxed as costs of 
court.
    <bullet>  Amend section 305 of the SCRA (50 U.S.C. App. Sec. 535) 
to specifically provide that a landlord may not impose an early 
termination fee if a servicemember terminates a lease pursuant to the 
SCRA and to allow a servicemember to give the landlord a letter from 
his/her commanding officer in lieu of providing copies of deployment/
PCS orders.

SEAMLESS TRANSITION IN HEALTH CARE
    Physical Screening of servicemembers is needed at demobilization 
sites to document the exit state of the individual. Medical Records of 
Guard and Reserve members are not maintained as completely as those 
members on active duty. Documentation is a key.
    Completion of the Medical Review/Physical Evaluation Board for 
individuals with medical problems is essential, to document fitness for 
service and potential medical complications. Such documentation helps 
the Department of Veterans Affairs record and process claims.
    In order to create a more seamless transition of health care, the 
ROA recommends the following enhancements:

    <bullet>  Medical records and information management systems in the 
Department of Defense need to be redesigned to be less cumbersome. The 
Department of Defense needs an electronic medical records system that 
is compatible with the systems from the Veterans Affairs.
    <bullet>  Improve the exchange of information between the 
Department of Defense and the Department of Veterans Affairs regarding 
military discharge decisions. The inter-agency connectivity and 
cooperation needs to be enhanced to better serve those that have served 
our Nation so well.
    <bullet>  Reservists need proper education and counseling in 
benefits, allowances, and assistance that are offered to wounded 
service personnel. A Reservist returns to a civilian community that may 
not have a nearby military installation. When considering this proposal 
there are many possible sources of training for personnel, including 
Reserve units and Veteran Service Organizations.
    <bullet>  JAGs should receive additional training in benefits, 
allowances, and resources and be made available for any legal 
assistance needed. Benefit systems can be confusing and the bureaucracy 
difficult to navigate; wounded warriors should not be left on their 
own. Once released from Active duty, Reservists are only partially tied 
to the military organization.
    <bullet>  Line of duty determinations must be made in a timely 
manner, with the ability to perform home status duty, while waiting the 
outcome from medical or physical evaluation boards.
    <bullet>  Long waits for medical or physical evaluation boards, in 
some cases a year or more, without drilling can cause Reservists to 
lose a satisfactory year. These non-qualifying years can affect 
promotion opportunities and retirement eligibility. The assignments of 
wounded warriors can and must be adjusted to accommodate their post-
injury condition.
    <bullet>  Benefits must be equal for all wounded warriors. All 
disparity in annual disability payments between the Active and Reserve 
components must be eliminated. Variances in VA ratings between States 
need to be standardized.
    <bullet>  Develop a Senior Enlisted report system at each medical 
facility to the Senior Enlisted Advisor to the respective Reserve 
Component Chiefs describing the condition of their medical facility. 
One of the traditional roles of any Senior Enlisted Advisor from a 
Platoon Sergeant to the Sergeant Major is ensuring the welfare of 
soldiers. The services must give the senior enlisted the tools to 
accomplish that mission at military treatment facilities.
    <bullet>  Reservists should have the option to return home while 
awaiting surgery, physical therapy or other medical treatment. They 
should also have the choice to receive these services from local 
TRICARE medical professionals at DoD expense. Many of these citizen-
warriors are often forced into an unfair choice between receiving full 
continued care on Active duty or a ``discounted'' disability for a 
quicker return to their civilian lives.
    <bullet>  Wounded warriors should be assigned to units local to 
their homes for the purpose of accountability and tracking their 
progress through the medical system. These service members risk falling 
between the cracks that are created between the Department of Defense 
and the Department of Veterans Affairs. The military needs to take 
responsibility for monitoring and advocating for their people until 
they are fully integrated into the Veterans Affairs system.
    <bullet>  Extensive mental health assessments should be given 
immediately upon return to home units with follow-up assessments as 
prescribed by mental health officials. When Reservists return to their 
civilian lives they may develop mental complications not previously 
noticed. Experts in this field need to be consulted to determine a 
monitoring program with no negative career repercussions associated 
with seeking mental health treatment.
    <bullet>  Traumatic Brain injury is the signature wound from Iraq. 
Predeployment baseline tests should be taken to measure changes in 
returning warriors.

SEAMLESS TRANSITION UNDER TRICARE, REQUIRING CHANGES TO USERRA AND SCRA
    Initial Coverage: The FY 2005 National Defense Authorization Act 
made permanent initial TRICARE health coverage up to 90 days prior to 
activation for servicemembers who receive a ``delayed-effective-date'' 
order for contingency operations greater than 30-days.
    The Risk: If Reserve component (RC) members have their orders 
canceled after enrolling in the initial TRICARE coverage, and they also 
have canceled their employer's health insurance, they are at risk. When 
the member returns to his employer and hasn't been covered under 
orders, he or she no longer has USERRA protection.
    Legislative Solution: Section 4317 of title 38 (USERRA) needs 
language included to protect this group of Guardsmen and Reservists.
    Demobilization Coverage: Congress made TAMP and TRS benefits 
permanent in the FY 05 NDAA. Changes to USERRA and SCRA are needed.
    Transitional Assistance Management Program (TAMP) provides 180 days 
health care coverage as a transition to civilian life. Under TAMP, the 
service member and family members are eligible to use TRICARE.
    TRICARE Reserve Select (TRS) is a health plan offered to Selected 
Reservists while they remain in a drill status. Should they discontinue 
drilling, they lose coverage.
    The problem: The Uniformed Services Employment and Reemployment Act 
(USERRA) and the Servicemembers Civil Relief Act (SCRA) have not been 
updated to match these TRS health care enhancements.
    SCRA: The Servicemembers Civil Relief Act provides for the 
reinstatement of any individual health insurance upon termination or 
release from service. The insurance must have been in effect before 
such service commenced and terminated during the period of military 
service. The reinstatement of the health insurance is not subject to 
exclusions or a waiting period if the medical condition in question 
arose before or during the period of service. The servicemember must 
apply for the reinstatement of the health insurance within 120 days 
after termination or release from military service.
    USERRA: The Uniformed Services Employment and Reemployment Rights 
Act (USERRA) ensures immediate reinstatement of health care by the 
employer only at the time when the RC member returns to employment. If 
the RC member continues on TAMP health care, or chooses to use the 
TRICARE Reserve Select coverage, the employer could decline 
reinstatement of health care to the Reservist when the government plan 
expires, requiring him or her to wait until the next open registration 
period, which could be months in the future.
    The Risk: Health Insurance Portability and Accountability Act 
(HIPPA) states that a pre-existing condition will be covered when 
transitioning between insurance plans if an individual was ``covered by 
previous health insurance (which qualifies under HIPAA as creditable 
coverage) and if there was not a break in coverage between the plans of 
63 days or more.'' TRICARE is a qualifying plan.
    If a member utilizes transitional health care over 120 days for an 
individual health insurance, or declines the employer's plan on the day 
of re-employment to continue on TRS, the demobilized service member may 
lose his or her USERRA or SCRA protection for a continuation of health 
care coverage. Should a waiting period exceed 63 days, pre-existing 
conditions of the member or family may not be covered.
Legislative Solution
    Section 4317 of title 38 (USERRA) needs to include protections for 
returning RC member employees who elect TRICARE Reserve Select. 
Subsection (a)(1) of section 4317 of title 38, United States Code, 
should be amended by inserting after `by reason of service in the 
uniformed services,' the following: `or such person becomes eligible 
for medical under chapter 55 of title 10 by reason of subsection (d) of 
section of 1074 or 1076 of that title.'
    Section 704 of the Servicemembers Civil relief act states in 
section (d) TIME FOR APPLYING FOR REINSTATEMENT--An application under 
this section must be filed not later than 120 days after the date of 
the termination of or release from military service. Suggested change 
180 from 120 days and inclusion of ``or upon completion of the person's 
eligibility for medical care under chapter 55 of title 10 by reason of 
subsection (d) of section 1076 of that title.''
    If TRICARE benefits aren't protected under USERRA and SCRA, members 
may only provide health care plans for family members, and turn to the 
Veterans Health Administration for their personal health care coverage. 
At a time when the VHA system is taxed by high demand, and health care 
costs are increasing, TRICARE benefits as well as Military and VHA 
medical coverage should be optimized.

CONCLUSION
    Mr. Chairman and distinguished members of the Committee, America's 
service men and women from the Reserve Components come from the heart 
of communities across this great country and its territories. Many were 
among the first to respond to their nation's call after September 11, 
2001. They have proven themselves to be worthy heroes and capable 
warriors and have earned the respect they so richly deserve from their 
fellow citizens. What they also deserve is the equality in benefits 
that are given to their Active Component brothers and sisters.
    The Reserve Officers Association urges the Congress to ensure that 
our newest veterans, the members of our Reserve Components, are treated 
equitably and fairly in benefits in addition to being honored as proud 
citizen soldiers, sailors, airmen, and Marines in the highest 
traditions of this great country.

                                 <all>

</pre></body></html>
